<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 2, 2002

                               __________

                           Serial No. 107-211

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2003
87-016 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Justin Paulhamus, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 2, 2002.....................................     1
Statement of:
    Reardon, James P., fire chief, Northbrook, IL; Raymond E. 
      Seebald, Captain, U.S. Coast Guard, Port of Chicago, 
      accompanied by Gail Kulish, Commanding Officer, Atlantic 
      Area Strike Team; Edward G. Buikema, Regional Director, 
      Region V, Federal Emergency Management Agency; and JayEtta 
      Hecker, Director, Physical Infrastructure Issues, U.S. 
      General Accounting Office..................................    60
    Wilkinson, John D., chief, fire and life safety services, 
      city of Evanston Fire Department; Dennis L. Nilsson, 
      commander, field operations division, Evanston Police 
      Department; Patrick J. Daly, Assistant Special Agent in 
      Charge, Chicago Division, Federal Bureau of Investigation; 
      Quentin Young, M.D., chair, health and medicine policy 
      research group, Hyde Park Associates in Medicine; John R. 
      Lumpkin, M.D., director, Illinois Department of Public 
      Health; Pamela S. Diaz, M.D., director, emergency 
      preparedness and infectious disease control, Chicago 
      Department of Public Health, accompanied by John Wilhelm, 
      M.D., commissioner, Chicago Department of Public Health; 
      Arthur B. Schneider, M.D., professor of medicine, chief of 
      the endocrinology section, University of Illinois; and 
      David A. Kraft, director, Nuclear Energy Information 
      Service....................................................     6
Letters, statements, etc., submitted for the record by:
    Buikema, Edward G., Regional Director, Region V, Federal 
      Emergency Management Agency, prepared statement of.........    77
    Daly, Patrick J., Assistant Special Agent in Charge, Chicago 
      Division, Federal Bureau of Investigation, prepared 
      statement of...............................................    10
    Diaz, Pamela S., M.D., director, emergency preparedness and 
      infectious disease control, Chicago Department of Public 
      Health, prepared statement of..............................    38
    Hecker, JayEtta, Director, Physical Infrastructure Issues, 
      U.S. General Accounting Office, prepared statement of......    88
    Kraft, David A., director, Nuclear Energy Information 
      Service, prepared statement of.............................    49
    Lumpkin, John R., M.D., director, Illinois Department of 
      Public Health, prepared statement of.......................    24
    Reardon, James P., fire chief, Northbrook, IL, prepared 
      statement of...............................................    64
    Schneider, Arthur B., M.D., professor of medicine, chief of 
      the endocrinology section, University of Illinois, prepared 
      statement of...............................................    46
    Seebald, Raymond E., Captain, U.S. Coast Guard, Port of 
      Chicago, prepared statement of.............................    68
    Young, Quentin, M.D., chair, health and medicine policy 
      research group, Hyde Park Associates in Medicine, prepared 
      statement of...............................................    21


  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK

                              ----------                              


                         TUESDAY, JULY 2, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                       Chicago, IL.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2525, Dirksen Federal Building, 219 South Dearborn Street, 
Chicago, IL, Hon. Steve Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn, Schakowsky, Biggert and 
Kirk.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Justin Paulhamus, 
clerk; Chris Barkley, staff assistant; Michael Sazonov, 
Sterling Bentley, Joe DiSilvio, and Yigal Kerszenbaum, interns.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on U.S. soil. Despite the 
damage and enormous loss of life, the attacks failed to cripple 
this Nation. To the contrary, Americans have never been more 
united in their fundamental belief in freedom and their 
willingness to protect that freedom. The diabolical nature of 
those attacks and then the deadly release of Anthrax sent a 
loud and clear message to all Americans: We must be prepared 
for the unexpected. We must have the mechanisms in place to 
protect this Nation and this people from further attempts to 
cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communications systems and rapid deployment 
of well-trained emergency personnel. Yet, despite billions of 
dollars which Congress has produced in spending on Federal 
emergency programs, there remains serious doubts as to whether 
the Nation is equipped to handle a massive chemical, biological 
or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Illinois and the good people of Chicago to know 
that they can rely on these systems, should that need arise. 
And we hope it does not happen.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of these on the front lines. We want to 
hear about their capabilities and their challenges. And we want 
to know what the Federal Government can do to help. We welcome 
all of our witnesses and look forward to their testimony.
    We have with us today the ranking member for the minority, 
Ms. Schakowsky. This is her turf and I yield to her for an 
opening statement.
    Ms. Schakowsky. Thank you, Mr. Chairman, and let me express 
my appreciation to you for scheduling this hearing in Chicago 
so that we could get the local input that we so desperately 
need in order to craft a plan that will help all of our cities. 
Homeland security really is dependent on hometown security and 
that is what we want to focus on today.
    My blackberry has been going off to announce--that is my e-
mail--an evacuation that is a drill in Washington right now of 
the Rayburn Building, to make sure that everyone can get out 
there. And there has been a lot of changes that we see every 
day in Washington, DC. But today, we want to know how are we 
doing here at home. The title of this hearing is ``How 
effectively is the Federal Government Assisting State and Local 
Governments in Preparing for a Biological, Chemical or Nuclear 
Attack.''
    Without adequate and appropriate information, direction and 
resources flowing from the Federal Government to the local and 
State authorities, Illinois, Chicago and other cities across 
the State cannot be expected to contribute the resources 
necessary to prevent and respond to a terrorist attack.
    Today's hearing is extremely timely. The FBI's latest 
warning of possible attacks over the Fourth of July holiday 
begs the question ``Are we prepared?'' Have Chicagoland 
authorities received the necessary information, cooperation and 
direction from the Federal Government to guarantee public 
safety or, at the very least, to minimize public risk?
    Has the State of Illinois been provided with what it needs 
from the Federal Government to develop and implement a 
comprehensive emergency preparedness plan? And in turn, are 
those resources making it to the local law enforcement and 
emergency responders who are on the front lines in the effort 
to prevent and respond to terrorist threats?
    We are here to find out the answers to those important 
questions. We are in Chicago today to hear the voices of local 
officials and to make sure their message is heard in 
Washington, DC. A successful blueprint for homeland security 
must begin with input from those on the front line. They are 
the ones who will assure that our 4th of July celebrations are 
safe and secure. They are the ones who will respond first to 
any incident. We cannot secure our Nation without their input 
and expertise.
    Since September 11th, the way we conduct the business of 
national security in this country has changed. Today, our 
Federal, State and local authorities are even more aware of 
potential threats. Additional steps are being taken to protect 
a more alert and concerned public. For most Americans, the 
thought of biological, chemical or nuclear terrorism is, for 
the first time, a real possibility. This is our new normal.
    In Washington, we are deliberating over the President's 
plan to create a massive new Government agency, the Department 
of Homeland Security. The full Government Reform Committee has 
primary jurisdiction over the creation of that department and 
hearings are scheduled next week on Capitol Hill. At each step 
of the way, we will continue to ask important questions, 
including whether this plan will make us safer. We must also 
determine whether critical non-security functions of agencies 
like the Coast Guard and FEMA and the INS will be compromised 
under that plan. We need input from the local level to make 
sure that all of this is done right.
    Today, we are focusing on the possibility of chemical, 
biological or nuclear terrorist attacks. Illinois has more 
nuclear power facilities than any other State. We need to be 
sure that adequate security and contingency plans are in place 
to deal with possible attacks on those facilities. The Federal 
Government has offered considerable resources and information 
to help with that effort and we will need an assessment as to 
how the coordination process on that front is progressing.
    Biological terrorism has already occurred. The Anthrax 
attacks that were delivered through the mail were a wake-up 
call for us to check the state of our public health 
infrastructure.
    As many of our witnesses today will explain, our public 
health system would be challenged in responding to a large-
scale disaster, either natural or man-made. The capacity of our 
public and private hospitals is strained each year during the 
flu season. A disaster with 10,000 injuries that required 
hospitalization would be very difficult for that system to 
handle.
    The front line of response in most disasters is local 
government. We see this again and again as hurricanes, 
tornadoes and heat waves strike the cities. Local firefighters, 
police officers and emergency medical personnel are the first 
there to tend to those in need. Any response we make now must 
keep in mind that fact. Training, resources, and communications 
are key to disaster response and should be the centerpiece of 
our investment. The majority of that investment should be made 
at the local level.
    Past experiences have shown that our public health system 
is also on the front line. Once the disaster scene is surveyed, 
the injured are moved to hospitals. It is often the case that 
the hospital capacity is reduced by the same disaster. We have 
taken our public health system for granted for some time now 
and it has suffered as a result. We must invest in personnel, 
planning and reserve capacity.
    Again, I want to thank each of our witnesses for taking 
time from their busy schedules to be with us today. I look 
forward to all of your testimony.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you. And now I yield time for Ms. Biggert, 
a neighbor in Naperville in Illinois and a very hard-working 
Member of Congress. We thank you for being here.
    Ms. Biggert. Thank you very much, Mr. Chairman. I want to 
start by welcoming you back to the ``second city.'' I also want 
to thank you for inviting me to participate in this important 
hearing on Federal, State and local efforts to prepare for a 
biological, chemical or nuclear attack. I am especially pleased 
to be here with my Illinois delegation colleagues to get the 
local perspective on our Federal counter-terrorism efforts and 
to find out how the Federal Government can better serve our 
first responders.
    I also want to take this opportunity to welcome a 
constituent of mine, Captain Ray Seebald of the U.S. Coast 
Guard, Captain of the Port of Chicago.
    Believe it or not, the Coast Guard's Marine Safety Office, 
Chicago, is not located in Chicago at all, it is headquartered 
in Burr Ridge, in my landlocked district. Regardless of the 
location of the offices, the Coast Guard has always played an 
important role along Illinois' waterways and in Lake Michigan, 
but since September 11th, the importance of that role has 
become even more obvious.
    I was happy to work with Captain Seebald long before 
September 11th to help secure money for the Coast Guard to 
construct a new Marine Safety station near Navy Pier. With the 
announcement of funds for the new station, Chicago's lakefront 
will become even safer for recreation and commercial traffic, 
but first, we have to get it built. Is that not right, Captain 
Seebald?
    So I am looking forward also to the testimony of many local 
public health officials and the threat posed by weapons of mass 
destruction requires our hospitals and clinics to plan for the 
unthinkable, which can be a daunting task. I hope our local 
public health officials will share with us today what the 
Federal Government is doing right and what it is not doing 
right to help them with this task.
    As a former member of this subcommittee, I remember when 
Chairman Horn last visited Naperville back in 1999, to discuss 
the ways the Federal Government could help States, 
municipalities and even private industry prepare for the Y2K 
bug. As we all know, Y2K came and went without incident. I 
believe catastrophe was avoided because we spent so much time 
and energy planning and preparing for it, and worrying always 
helps a little bit too.
    I can only hope the more time and energy we put into 
planning and preparing for future terrorist attacks, the more 
likely we are to avoid another catastrophe like that of 
September 11th. Unfortunately, we will never know if our 
efforts have been truly successful like we did on January 2000. 
We will not be able to breathe a sigh of relief like we did on 
that New Year's Day. The threat of terrorism is permanent and 
it is constant. But the memory of that fateful September day 
seared in our minds and hearts will always motivate us to try 
any and everything possible to see that it never happens again.
    In this process of planning, preparation and prevention, 
congressional hearings like this one in places other than 
Washington, DC, are extremely helpful. This is especially true 
as the House prepares to consider the President's plan to 
establish a new Department of Homeland Security to protect and 
defend our land and our way of life.
    It is our responsibility as Members of Congress, to ensure 
that the Federal agencies continue to develop a national 
approach to homeland security and that they have the resources 
to do so. That is why we are going to provide funds in fiscal 
year 2003 to identify and confront terrorist threats before 
they can get off the ground.
    In many ways, September 11th was a wake-up call for our 
Nation and we have taken several steps to answer that call. At 
the end of the day, we must take action to preserve the values 
that make the United States the greatest and the most powerful 
country in history and I think that we are.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you. And we now are delighted to have Mr. 
Kirk, a very hard-working member and he has given us a lot of 
legislation which we will be acting on in a few weeks on 
accounting and fiscal problems to increase better things for 
the taxpayers, and we are glad to have him here.
    Mr. Kirk. Thank you, Mr. Chairman and Congresswoman 
Schakowsky for having us. I also am very pleased that this is 
the room that I was sworn into the Illinois Bar in, and it is 
good to be back here.
    Mr. Chairman, I believe that September 11th gave us fair 
warning that Chicagoland could be the next ground zero of a 
terrorist attack. We are home to America's tallest building, 
there are more nuclear reactors in Illinois than any other 
State, we are home to the busiest airport in the world and we 
are headquarters to most Federal offices controlling affairs in 
the midwest. We need to do a better job on homeland defense.
    Just a few weeks ago, we gathered 27 police and fire 
departments in northeast Illinois with the White House Office 
of Home Defense and I can say that first-responders there are 
looking forward to the $3.5 billion White House first responder 
initiative when it kicks off next month. The report will be 
received by the Congress later this month detailing how local 
police and fire can apply for these funding streams.
    The key, I believe, is communication. In the District of 
Columbia, as September 11th unfolded, cell phones collapsed 
first, followed by landlines. Some first responders were forced 
to use only four available frequencies in responding to the 
Pentagon fire. One system survived, which is wireless e-mail, 
it handled the whole load, even after a 100fold increase. I 
believe the Federal Government should help upgrade first 
responder communications.
    I am very happy that we are joined here by Chief Jay 
Reardon of the Northbrook Fire Department, but he is also 
President of the Mutual Aid Box Alarm System, which is 
northeastern Illinois' mutual aid society between fire 
departments. It is this organization which can help us respond 
anywhere from a 1 alarm to a 25 alarm fire, which a weapon of 
mass destruction would certainly result in.
    So I applaud you for holding this hearing and look forward 
to the results. And thank you for coming to Chicago.
    Mr. Horn. I thank the gentleman.
    We, as you know, are an investigating committee and, 
therefore, we do put witnesses under oath. And so if all the 
witnesses this morning and the people that will support them 
would please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. Thank you. The clerk will note all, not just at 
the table but the ones back of the table.
    So we will start then with the panel one, we called it, and 
we are trying to get both the State, the local, the Federal, 
all moving along. We are going to start with Chief John D. 
Wilkinson, Fire and Life Safety Services of the city of 
Evanston Fire Department.
    Ms. Schakowsky. Mr. Chairman, if I could just give a 
special thanks to Chief Wilkinson. Because we are so concerned 
about hometowns, I thought we would start with my hometown and 
so both Chief Wilkinson and Commander Nilsson are from 
Evanston, where I have lived for 30 years. Thank you for being 
here.
    Mr. Horn. OK, Chief.

 STATEMENTS OF JOHN D. WILKINSON, CHIEF, FIRE AND LIFE SAFETY 
SERVICES, CITY OF EVANSTON FIRE DEPARTMENT; DENNIS L. NILSSON, 
     COMMANDER, FIELD OPERATIONS DIVISION, EVANSTON POLICE 
DEPARTMENT; PATRICK J. DALY, ASSISTANT SPECIAL AGENT IN CHARGE, 
  CHICAGO DIVISION, FEDERAL BUREAU OF INVESTIGATION; QUENTIN 
YOUNG, M.D., CHAIR, HEALTH AND MEDICINE POLICY RESEARCH GROUP, 
   HYDE PARK ASSOCIATES IN MEDICINE; JOHN R. LUMPKIN, M.D., 
DIRECTOR, ILLINOIS DEPARTMENT OF PUBLIC HEALTH; PAMELA S. DIAZ, 
 M.D., DIRECTOR, EMERGENCY PREPAREDNESS AND INFECTIOUS DISEASE 
 CONTROL, CHICAGO DEPARTMENT OF PUBLIC HEALTH, ACCOMPANIED BY 
JOHN WILHELM, M.D., COMMISSIONER, CHICAGO DEPARTMENT OF PUBLIC 
HEALTH; ARTHUR B. SCHNEIDER, M.D., PROFESSOR OF MEDICINE, CHIEF 
OF THE ENDOCRINOLOGY SECTION, UNIVERSITY OF ILLINOIS; AND DAVID 
     A. KRAFT, DIRECTOR, NUCLEAR ENERGY INFORMATION SERVICE

    Mr. Wilkinson. Well, in a more global sense, Chief Reardon 
will be able to speak to the MABAS portion of it, but our 
experience at the local, basic, first-responding level 
initially from September 11th, that period of time, was 
communication was coming from all directions. We didn't know 
for sure what to believe.
    We do some high-risk analysis in our community, we have 
been doing this for a long time and we have a structure in 
place. But initially, I think we felt lonely, there was not a 
lot of other communication coming down to us. Since then, the 
Government has provided a lot of resources that go into our 
MABAS organizations and our special teams and communications is 
definitely an issue, and that communication problem is still 
there and it is inter-agency, both from law enforcement to fire 
and from various law enforcement and various fire departments 
among themselves. Communication is a big one to overcome.
    What I would like to see and what I am looking for and 
think is coming down the road is preparedness at the actual 
first-responding level. Resources are available to us, we can 
get them, but not as timely as if we had them right at the 
first very responding level. We are using the same technologies 
and the same personnel for situations that could be 
significantly different than they were in the past. And I think 
it is going that way, but speeding that process up in the 
funding so that we can get it to the local level is going to 
make a difference for us.
    We are still maintaining the same services we did before 
plus living under this threat. And the threat is not just an 
international thing either. I mean we have had a number of 
incidents in the United States that were not from any organized 
foreign soil. Oklahoma City was an example that taxed them 
completely. And that is the incident that we are concerned 
about, the one that has no warning. And that potential is out 
there.
    So that is essentially where we are at. Things did not seem 
to work quite as well, things have been I think a little bit 
slow coming, but they are coming, and we still have--at first 
responding level, we need some better education, better 
training facilities. There really are not too many of them out 
there and, of course, the communication issue.
    That is essentially a snapshot as I see it.
    Mr. Horn. Well, thank you very much. You are on the firing 
line and we listen to people that are on the firing line.
    The next presentation is Commander Dennis L. Nilsson, Field 
Operations Division, Evanston Police Department.
    Mr. Nilsson. Good morning.
    On September 11th, we all had a very rude awakening, as 
everybody in this room knows. Myself, like everybody else, the 
first thing we did was we went to a television to see what was 
going on. And then as the realization began to settle in, we 
had to start looking at our home, where we are, what did we 
have to do. We had to start looking at our vulnerability 
immediately because in our community is looking at us, pubic 
safety, police and fire, to reassure that safety and security 
is in fact in Evanston.
    What we started to learn that morning was just what we did 
not know and what we did to have available to us. Evanston is 
very fortunate, we are a well-trained police and fire 
department, but we realize that our equipment that we respond 
with is equipment that we respond to suppress fire and our 
officers are trained to handle crime on the street, crime in 
the home, not terrorism at the level that we were seeing.
    The community looked toward us, when they were coming home 
that night, getting off the public transportation, they were 
actually greeting our officers and thanking them for being 
there. But what we found out was we had nobody to call at that 
time. We were beginning to pool our resources in our city, our 
health department came together, our emergency operations 
center, police and fire and we began to assess what we had 
available to us and what communications we had, how to keep the 
communications open amongst ourselves so that we could provide 
these services to our community.
    So we found out in retrospect and looking back, it has 
already been said, communications is key.
    Training, we are going to need more training. Our police 
officers are trained as crime fighters and problem solvers, 
they are not trained to handle terrorism. Our first responders, 
when they are going to go in, they are going to go in as they 
go into any issue that we go in on, a fire, a call for the 
police, they are going in there pretty much without equipment. 
They are not going in with hazmat suits, so they are very 
vulnerable. So we need to begin to train our police officers on 
how to handle situations and be more aware of these situations, 
because we have never experienced this. In 32 years of law 
enforcement, it was my first experience feeling that we really 
needed more training.
    We need help at the community level to provide extended 
assistance in the event that a critical incident happens that 
goes beyond the agency's ability to sustain long-term 
commitment to the incident, something that goes beyond the 
agency's ability to provide adequate manpower and resources. We 
are well-equipped to handle the day-to-day stuff, but what we 
are looking at now is we are looking at having to handle 
something that goes beyond the day-to-day stuff and something 
that goes on to the extended. We need to bring in other 
resources, we need to know what other resources are out there 
and available to us and we need to begin to pool that 
information so we do not make blind phone calls like we were 
making on September 11th, trying to contact our resources that 
we use on a day-to-day basis, only to find out that they've 
already been over-taxed with calls from other agencies.
    That is basically what we were faced with that morning.
    Mr. Horn. Well, thank you for telling us that tale.
    The next presenter, I want to say that this subcommittee, 
over the last few years, we have depended on those in the 
Federal Bureau of Investigation, whether it was Y2K or whether 
it was fraud or whatever. Patrick J. Daly is the Assistant 
Special Agent in Charge, Chicago Division, Federal Bureau of 
Investigation. We thank you for all the help you and your 
colleagues have given us.
    Mr. Daly. Thank you, Mr. Chairman. I appreciate this 
opportunity to discuss the FBI's efforts in northern Illinois 
to address the problems of weapons of mass destruction or WMD.
    The mission of the FBI's counterterrorism program is to 
detect, deter, prevent and swiftly respond to terrorist actions 
that threaten the U.S. interests. Director Mueller identified 
the first priority of the FBI as protecting the United States 
from terrorist attack.
    The Chicago FBI covers the northern portion of the State of 
Illinois, it contains 18 counties and has more than 370 law 
enforcement agencies. Chicago FBI has approximately 434 special 
agents and 282 support employees.
    The FBI has developed an enhanced capacity to deal with 
acts of terrorism. This has been accomplished by one, 
increasing number of FBI and task force personnel investigating 
terrorism; two, establishing partnerships with law enforcement, 
first responders and public health communities to combat WMD 
threats; and three, improving information sharing with local, 
State and Federal agencies as well as with the private sector.
    The Chicago FBI has been extremely active in the WMD 
program area with an emphasis on strong liaison with State and 
local agencies. Since 1999, Chicago has participated in more 
than 200 field and table-top exercises with area first 
responders. Chicago has one of eight regional enhanced 
hazardous material response teams composed of FBI special 
agents trained to gather evidence in a contaminated crime 
scene. FBI bomb technicians are also hazmat trained.
    The Chicago Division participated in a terrorism threat 
assessment team consisting of the Chicago Police Department, 
Fire Department and Illinois State Police. This team identified 
key infrastructure components throughout the city of Chicago.
    The Chicago Division recently began an information sharing 
project with Federal, State and local law enforcement agencies 
using the Law Enforcement Online [LEO], Web page. This 
information sharing project is a result of a task force on 
terrorism initiated by the Illinois Association of Chiefs of 
Police and the Chicago FBI after the September 11th attacks.
    The Chicago Terrorist Task Force was founded in 1981 by 
members of the Chicago Police Department, FBI, Secret Service 
and Illinois State Police. Today, member agencies include the 
FBI, Chicago Police, Illinois State Police, Secret Service, 
ATF, INS, Customs, IRS, Postal Inspectors and State Department 
Diplomatic Security. Other agencies providing close cooperation 
with the Chicago Terrorist Task Force include the CIA, FEMA, 
Illinois Emergency Management Agency, Chicago Fire Department, 
Department of Health and Human Services, Illinois Department of 
Public Health, Department of Energy and various local police 
and fire departments.
    The Chicago Division enjoys an excellent relationship with 
the U.S. Attorney's Office for the Northern District of 
Illinois. The present U.S. Attorney, Patrick Fitzgerald, is 
recognized for his extensive knowledge of terrorist groups and 
his ability to successfully prosecute them.
    Life has changed for all of us in the United States as well 
as throughout the world. Major acts of terrorism are no longer 
confined to Asia, Europe, the Middle East and South America. 
The terrorists have struck hard within our borders and have 
brought the violence to our neighborhoods, to our citizens, to 
our families, to all of us. We are threatened by a man in a 
cave thousands of miles away and by a former Chicago resident 
named Padilla, who returned to his city and this Nation seeking 
to carry out a plan of mass destruction. We are improving our 
WMD capabilities, our intelligence sharing, our willingness to 
dedicate personnel and resources to this fight. We, the FBI, 
the Chicago Terrorist Task Force, the public safety community, 
the public health community, the military, the intelligence 
agencies and our allied countries are joined in a battle that 
may last years, but the alternative of not entering the fight 
is unacceptable.
    Thank you.
    Mr. Horn. Thank you. And we know you have other 
appointments and we thank you for giving us that statement.
    Our next presenter is Dr. Quentin Young, chair, Health and 
Medicine Policy Research Group, Hyde Park Associates in 
Medicine.
    [The prepared statement of Mr. Daly follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.001
    
    [GRAPHIC] [TIFF OMITTED] T7016.002
    
    [GRAPHIC] [TIFF OMITTED] T7016.003
    
    [GRAPHIC] [TIFF OMITTED] T7016.004
    
    [GRAPHIC] [TIFF OMITTED] T7016.005
    
    [GRAPHIC] [TIFF OMITTED] T7016.006
    
    [GRAPHIC] [TIFF OMITTED] T7016.007
    
    [GRAPHIC] [TIFF OMITTED] T7016.008
    
    [GRAPHIC] [TIFF OMITTED] T7016.009
    
    Dr. Young. Thank you, Mr. Chairman.
    Ms. Schakowsky. Again, Mr. Chairman, if I could--also past 
President of the American Public Health Association, former 
medical director, Cook County Hospital and my personal 
physician. [Laughter.]
    Dr. Young. Thank you. Mr. Chairman and members of the 
committee, I am really honored to be invited to present to you.
    In contrast to all the other members of this panel, I am 
not a full time professional devoted to defending us in all the 
ways they are. I rather am a physician celebrating 50 years of 
practice in my community, whose life has been punctuated by a 
number of exciting experiences in public health ranging from 
chairing the large department of medicine at our big public 
hospital here to service in the Public Health Service when I 
was much younger. My remarks, Mr. Chairman, will be rather 
global in an effort to talk about public health policy rather 
than what I am not qualified to talk about, the delivery of 
services as my colleagues have been doing.
    To proceed, the Federal Government must be the mainstay of 
public health, including the threats from terrorist sources. As 
such, it is failing to meet its responsibilities in a manner 
commensurate to the challenge.
    The inadequacies and weaknesses of our U.S. public health 
system spring from long-term neglect or policies that do not 
enhance systemic strengths.
    Our national, State and local health agencies are 
underfunded and poorly coordinated. Elementary modern 
capabilities in computer information systems, round the clock 
personnel in place, laboratories of a uniform high quality and 
speedy accessibility, a full public health professional work 
force--are all deficient in various degrees across our country 
and our State.
    These deficiencies are the result of decades of inattention 
and misdirection of resources, stemming from the post-World War 
II focus on the perceived terror of that day--bacteriological 
warfare. Overall our policy decisions produced no practical 
protections against this biological threat. We did buildup 
stockpiles of our own, only to destroy them during President 
Nixon's watch, because they could not be used by us. In the 
latter half of the 20th century, our chronic poor funding and 
narrow policies for public health resulted in our current 
plight. And let me underscore that by saying I am fearful that 
in moving, as we must, to defend ourselves against this new 
unprecedented threat, that we may abandon principles that can 
really protect us. And I will go forward with that.
    In addition to prompt upgrading of our public health 
capabilities--and I am aware that much of the legislation you 
have before you and have already passed attempts to do just 
that--we have several other tasks to achieve optimum protection 
for our people:
    We need a health care system that is financed by an 
insurance benefit that is universal and managed by the 
government in simplest terms, Medicare for all. It may not seem 
responsive to terrorist threats to call for universal health 
care, but as a practicing physician for half a century, I 
assure you, ladies and gentlemen, that it is crucial to our 
defenses against an unexpected catastrophe.
    We need to untether the directors of our public health 
agencies from the present arrangement of subservience to the 
political incumbent at the Federal, State or local health 
department level. That is the way we do it in this country. My 
distinguished colleague worked for Governor Ryan and the 
Surgeon General for the President. Now it is logical, but we 
need to have more freedom for these crucial professional jobs. 
It would mean a change in the way we have done things over the 
years, but unless we liberate--I use the word advisedly--our 
health system from that political control, which is not 
necessarily negative or obnoxious, but is always subordinate to 
other considerations, we can see at moments like this how 
contrary that can be. And I suggest a separate board like the 
SEC or the FTC could facilitate achievement long term of public 
health objectives at all levels in a coordinated fashion, and 
not be immediately subordinated to the political realities of 
the moment, which are always important.
    Finally, we should foster the development of a supportive 
citizen constituency advocating for a strong public health 
system. And if I may, Mr. Chairman, that is the essence of my 
learning over the decades. We do not have a public health 
constituency in the way we have constituencies for every other 
kind of issue in this country. We have quasi-public health 
constituencies. The American Lung, the American Heart and 
American Cancer support the control of the tobacco scourge--
public health issue if ever there was one--but I have to return 
to the generalization that we do not have in place on a regular 
basis people who can petition Congress in behalf of the public 
health system in an orderly fashion. We have, in a word, made 
our public health system the Cinderella of our health system.
    Thank you.
    Mr. Horn. Thank you. And we now go to the Illinois 
Department of Public Health, its director is Dr. John R. 
Lumpkin. We are glad to have you here.
    [The prepared statement of Dr. Young follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.010
    
    Dr. Lumpkin. Thank you, Mr. Chairman, members of the 
committee for the opportunity to be here and speak. Today--
actually just yesterday--our agency celebrated our 125th 
anniversary as an agency. Our agency was created in 1877 in 
response to a threat of yellow fever. Now, just as then, we are 
addressing concerns; this time it is man-made epidemics.
    In 1988, the Institute of Medicine Committee on Public 
Health stated that the current state of our ability to effect 
public health action is cause for national concern and for the 
development of a plan of action for the needed improvements. In 
the committee's view, we have slackened our public health 
vigilance nationally and the health of the public is 
unnecessarily threatened as a result. That report was issued 
and basically went on the shelf. It was not until the events of 
September 11th and the following October 4 disclosure of an 
outbreak of anthrax that we as a Nation began to look and 
identify that maybe we have major problems in our public health 
system, which the Institute of Medicine Committee noted some 14 
years earlier.
    As a result, we have had major increases in funding. The 
$1.1 billion allocated for the public health system is a 
dramatic shot in the arm, one of the largest increases in 
public health funding that we have seen, at least in my 
lifetime and I think perhaps in the history of our public 
health system.
    We have taken this task very seriously and we have moved 
ahead. This funding is crucial to rebuild an eroding 
infrastructure. It is an infrastructure that has to be rebuilt 
not only in large areas like Chicago and the metropolitan areas 
but throughout the State where public health is so important.
    With this funding at the State level, we are establishing 
12 public health regional response planning areas; we are 
hiring 23 emergency response coordinators for local emergency 
response planning areas; we are establishing local health 
department administrative grants for preparedness; we are 
developing an Illinois National Electronic Disease Surveillance 
System; we're hiring 22 regional epidemiologists to enhance 
local regional surveillance capacity at the local level; we are 
increasing the capacity of three State laboratories by hiring 
staff and upgrading laboratory systems; we are developing local 
health department capacity to support the State laboratories 
and to develop surge capacity; we are establishing a hospital 
health alert network so that we can communicate in a much 
faster way with hospitals the way we have already established 
with local health departments; we are enhancing 24/7 flow of 
critical health information to public health partners 
throughout the State at the local level; we are establishing a 
local health department training and education grant to build 
capacity; we are facilitating the development of a model 
regional hospital preparedness plan and providing direct 
funding to hospitals to implement these; and we are 
establishing core preparedness standards for the three-tiered 
facility classification system.
    All these are important enhancements that we are doing with 
the Federal funding and we could not do them without it.
    You have before you a little document that I found as we 
were preparing for our history, the 125th anniversary, and what 
it is is a document from a page of one of the publications we 
had in the 1920's and what it says is ``A full time medical 
health officer prevents disease.'' The interesting thing is 
that, when you look at this, how he is communicating with his 
local people by phone is pretty much the way we do things 
today--telephone and pieces of paper. You see before you this 
blue card, it is how we get reports about infectious diseases 
in this State. We are using 1920's technology.
    With this current round of Federal funding, we are going to 
be able to move into an electronic system--the first phase will 
be implemented by October this year--because of the influx of 
new funding.
    Our public health system has undergone a period of neglect. 
I think it is very important to note that, just as someone who 
is exposed to anthrax is not treated with just one dose of 
medication but is treated for a number of days, we cannot treat 
our public health system with a single infusion of funds. We 
have to make a long-term commitment to continue to fund the 
enhancements, which we believe in this State we are using 
wisely to create a system that will not only help if there is 
an attack, but every single day will help.
    The enhancements we did in the laboratory enabled us to 
better respond to West Nile disease. If we are going to rebuild 
our public health system, we will reap the benefits even if 
there is no further attack, which unfortunately, we do not 
believe is the case.
    Thank you.
    Mr. Horn. Thank you, Dr. Lumpkin.
    Next, we have Dr. Pamela Diaz, director, Emergency 
Preparedness and Infectious Disease Control in the Chicago 
Department of Public Health. She is accompanied by Dr. John 
Wilhelm, commissioner, Chicago Department of Public Health and 
Dr. Arthur B. Schneider, professor of medicine, chief of 
endocrinology section, University of Illinois and David A. 
Kraft, director, Nuclear Energy Information Service.
    So we will just go right down the line, Ms. Diaz.
    [The prepared statement of Dr. Lumpkin follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.011
    
    [GRAPHIC] [TIFF OMITTED] T7016.012
    
    [GRAPHIC] [TIFF OMITTED] T7016.013
    
    [GRAPHIC] [TIFF OMITTED] T7016.014
    
    [GRAPHIC] [TIFF OMITTED] T7016.015
    
    [GRAPHIC] [TIFF OMITTED] T7016.016
    
    [GRAPHIC] [TIFF OMITTED] T7016.017
    
    [GRAPHIC] [TIFF OMITTED] T7016.018
    
    [GRAPHIC] [TIFF OMITTED] T7016.019
    
    [GRAPHIC] [TIFF OMITTED] T7016.020
    
    [GRAPHIC] [TIFF OMITTED] T7016.021
    
    [GRAPHIC] [TIFF OMITTED] T7016.022
    
    Dr. Diaz. Thank you very much for the opportunity to speak 
with all of you today. As noted, I am joined by Dr. John 
Wilhelm, the commissioner of health for the city of Chicago.
    This is a very important subject, as it relates to 
bioterrorism and terrorist acts.
    Since September 11th and the anthrax crisis that gripped 
our country, the city of Chicago has loomed large as a 
potential target for bioterrorism. In recognition of this fact, 
the Federal Centers for Disease Control and Prevention awarded 
the Chicago Department of Public Health $12 million to support 
the development of an integrated system for protecting the 
citizens of Chicago and the surrounding area from bioterrorist 
attack.
    It should be noted that much of the work by the Chicago 
Department of Public Health in this area long predates 
September 11th or the recent CDC award. The Chicago Department 
of Public Health has, over the years been building a strong and 
effective system to detect and monitor outbreaks of routine 
infectious diseases and 2 years ago, direct funding from the 
CDC helped lay that groundwork specifically around 
bioterrorism.
    Today, the Office of Emergency Preparedness, in response to 
infectious diseases, coordinates the Department's activities 
related to bioterrorism in partnership with other city, State, 
regional and Federal agencies. Many of these activities include 
table-top exercises that involve leaders in our health 
department, additionally our fire department, law enforcement 
and other critical first responders. These exercises allow 
leaders to map out strategies for responding to a variety of 
scenarios.
    We have regular meetings of a technical advisory group on 
bioterrorism that is comprised of experts and leaders in our 
community. This group would be called upon to support us and 
for consultation during an emergency.
    We have established a 24-hour a day, 7 day a week call 
system allowing health professionals in the community to 
immediately report suspicious symptoms that may be related to a 
bioterrorist attack or any outbreak of infectious diseases.
    We have developed plans for distribution of drugs, vaccines 
and medical supplies for protection of the public in the event 
of a terrorist attack.
    And most importantly, an enhanced capacity to recognize 
through disease surveillance, and respond to communicable 
diseases of all kinds. Whether the threat of Anthrax or 
Influenza, public health defense depends not on any one single 
strategy, but many functions and disciplines, including 
epidemiology, planning public information and general 
communicable disease control. In other words, the threat of 
bioterrorism calls not so much for new and extraordinary 
strategies to be used once in an emergency that hopefully will 
never happen, but for resources and systems that should be in 
place as part of routine public health functions.
    The challenge is to ensure that adequate resources are 
available to manage a bioterrorist incident, a uniquely complex 
event that would potentially involve the entire city's 
population, its health care system, first responders, the media 
and just about every other institution in the city.
    It should be emphasized that the Chicago Department of 
Public Health has not been putting our programs into place 
alone, but in concert with Federal, State and regional health 
departments. Our department is working to increase 
connectivity, that communications link, through high-speed, 
secure internet technology, our health alert network, with 
other health departments, our city hospitals, and other 
agencies such as our first responder agencies and health 
systems that would be involved in an event.
    Additionally, it should be noted that the Department is 
working to help the City's hospitals prepare for a bioterrorist 
attack using funds from the Health Resources and Service 
Administration.
    And finally, the City has been an active advocate of 
enhancing the State's laboratory capacities for testing for the 
presence of infectious diseases.
    We believe our program demonstrates the value of direct 
Federal funding. Some have argued that all support for 
protection against bioterrorism should be given to States and 
only indirectly to local health departments. Well, when it 
comes to many matters of public health, one size does not fit 
all. The needs of a densely populated socio-economically 
diverse urban center like Chicago and the other cities that 
receive direct funding are not those of smaller more rural or 
suburban locations. Some also have pointed out that 
bioterrorism can occur anywhere, and to be sure, terrorism, 
like infectious diseases, is not confined to the Nation's 
largest cities. But the vulnerability of cities like Chicago, 
and the magnitude and complexity of responding to an attack, 
and containing it, is not determined only by the density and 
size of the population. It is also determined by the physical 
size of the city, the complexity of the city's health care 
system, the socio-economic, linguistic and ethnic diversity of 
the population, the concentration of industry, the presence of 
two large airports like Chicago as well as rail transportation 
and interstate highways and a daily influx of visitors from all 
over the world. These and a host of other factors, make 
containment of an outbreak of deadly disease in Chicago vastly 
more complicated to manage than a similar outbreak in a smaller 
or more rural setting. As only one example of this complexity, 
one might imagine the catastrophic potential of an undetected 
outbreak of highly infectious disease being carried all over 
the Nation and the world as thousands of travelers leave the 
airports in Chicago.
    And finally, we join others in supporting the development 
of the new Federal department, having a coordinating role among 
all Federal departments in terrorism activities.
    As I hope we have demonstrated this morning, the public 
health requirements for bioterrorism preparedness are well 
within the broader routine activities of public health, and 
therefore, caution that the policies, planning and 
implementation of the public health aspects of bioterrorism 
remain within the Department of Health and Human Services, most 
notably CDC and HRSA.
    Thank you very much for the opportunity to speak with you 
today.
    [The prepared statement of Dr. Diaz follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.023
    
    [GRAPHIC] [TIFF OMITTED] T7016.024
    
    [GRAPHIC] [TIFF OMITTED] T7016.025
    
    [GRAPHIC] [TIFF OMITTED] T7016.026
    
    [GRAPHIC] [TIFF OMITTED] T7016.027
    
    [GRAPHIC] [TIFF OMITTED] T7016.028
    
    Mr. Horn. Thank you. Dr. Wilhelm, can you come here at the 
table.
    Dr. Wilhelm. Good morning. Dr. Diaz actually gave our 
combined departmental testimony.
    Mr. Horn. Well, Dr. Wilhelm, you are a commissioner, and so 
if you would like to add anything, let us know.
    Dr. Wilhelm. The only thing I would emphasize again are the 
points of the complexity of a City such as Chicago and the 
others who receive direct funding--New York City, Washington, 
DC, and Los Angeles. It is extremely important that we use the 
funding to build our everyday systems to control communicable 
disease which are the exact systems that we would be using in 
the event of a bioterrorist attack.
    Mr. Horn. You might want to bring the microphone a little 
closer. Thank you. Technology is slow with congressional 
committees. Go ahead.
    Dr. Wilhelm. My comment was the only thing that I would 
emphasize in the departmental statement that Dr. Diaz presented 
is the importance of direct funding to Chicago as well as the 
other cities--New York, Washington, DC, and Los Angeles, in 
recognition of the complexity and the density here in these 
major cities. What the funding is doing is it is strengthening 
our everyday systems and collaborations for control of 
communicable disease, which are the same systems that we would 
be using in the event of a bioterrorist attack.
    Thank you.
    Mr. Horn. Thank you. Dr. Schneider. Dr. Schneider is 
professor of medicine, chief of endocrinology section at the 
University of Illinois.
    Dr. Schneider. Thank you. I appreciate the opportunity to 
present my comments on the role of potassium iodide, also 
referred to as KI, in the event of a nuclear or radiological 
terrorist attack.
    As an endocrinologist, I care for patients with thyroid 
disease. I have been studying the effect of radiation exposure 
on the thyroid since 1973. The studies have focused on the 
thyroid gland since it is the most sensitive organ to the 
effects of radiation. I have also served on advisory panels for 
a variety of studies, including those occurring in the 
Chernobyl region. Finally, until recently, I was the Chair of 
the Public Health Committee of the American Thyroid 
Association. My comments are also informed by my working with 
the expert members of that association.
    The thyroid gland uses iodine to make thyroxine. Iodine is 
a unique component of thyroxine. As there is relatively little 
iodine in the diet, in order to make thyroxine, the thyroid has 
developed the ability to concentrate it. When the body is 
exposed to radioactive iodine, it is also concentrated in the 
thyroid gland. Giving a large amount of non-radioactive iodine, 
in the form of a KI tablet, can prevent this. The non-
radioactive iodine saturates the thyroid and largely prevents 
it from taking up the radioactive form.
    While it was known for decades that external radiation 
could cause thyroid cancer, it was not so clear for internal 
exposure from radioactive iodine. This uncertainty was erased 
by the unfortunate outcome of the Chernobyl accident. Among 
exposed children, hundreds of cases of thyroid cancer have 
occurred. Many of these cases have been unusually aggressive 
and some have been fatal. A terrorist attack on a functioning 
nuclear power plant could release radioactive iodine. A nuclear 
explosion would also release radioactive iodine, as did the 
bombs exploded in Japan and the above-ground tests conducted in 
the United States and in the Soviet Union. A dirty, 
conventional bomb or a non-functioning plant may not release 
radioactive iodine.
    Following the Chernobyl accident, KI was widely used in 
Poland. That experience proved its safety and provided an 
important part of the data used to support the guidance issued 
by the FDA and the recommendations of the American Thyroid 
Association and others in favor of distributing KI tablets. 
Based largely on the Chernobyl experience, the American Thyroid 
Association recommends predistribution in a 50-mile radius 
around nuclear plants and stockpiling up to 200 miles.
    I am pleased that both the legislative and executive 
branches of the government have acted and I am also pleased to 
see the growing list of States that have accepted iodine from 
the Federal Government.
    Although there appears to be movement in the State of 
Illinois, the situation is less clear. First, reported comments 
from at least one State official indicate an under-estimation 
of the effects of thyroid cancer. Although often referred to as 
one of the ``good'' cancers to have, on occasion it can be 
difficult to treat and, as I mentioned, it can be fatal. 
Successful treatment includes removing the thyroid gland. 
Living without the thyroid gland is readily managed, but it is 
not without its difficulties and potential dangers. The second 
concern is that Illinois reportedly will use industrial support 
to purchase its supply of KI tablets. The rationale for this is 
not clear and raises the concern that Illinois will have 
policies that differ from its neighboring States and the rest 
of the country.
    I thank you for the opportunity to address you.
    Mr. Horn. Thank you, Dr. Schneider. That is a very helpful 
presentation because we have had a number of worries about the 
iodine.
    And now we have David Kraft, director, Nuclear Energy 
Information Service, and we look forward to your testimony.
    [The prepared statement of Dr. Schneider follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.029
    
    Mr. Kraft. Thank you. I want to thank the committee for 
opportunity to present today.
    My organization is based in Evanston, Illinois and we have 
been around 20 years. Our purpose is to act as a citizen 
watchdog organization on the commercial nuclear power industry. 
Illinois, as was mentioned earlier, has more reactors than any 
other State. In our opinion, it needs more surveillance and 
watchdogging as well. And I think history has borne that out 
amply.
    My comments today will be different from the previous ones 
you have heard, largely which have been based on public health 
and medical concerns. I want to focus in on the issues of 
energy and infrastructure and how that factors into the 
terrorist threat in the future.
    In trying to get a handle on how I would put my remarks to 
you today, I was thinking back to my experience on September 
11th and that following week after the tragedy. And what 
occurred to me is something that I think you in Congress really 
need to examine from a strategic standpoint. A lot of what you 
have heard today I think is a tactical response to crises and 
emergencies that we are anticipating, but unless we also 
anticipate in a broader sense and a broader scale how our 
society is structured, where it is vulnerable and where we can 
make substitutions, then we are fooling ourselves into thinking 
that we are really protecting the public.
    So what I hope to get across to you today is one concept 
that September 11th has demonstrated. And that is, the way we 
have constructed our technological society makes our 
infrastructure both a target and a weapon. In the past, there 
was a distinction between the two and I think it was much more 
clear cut.
    What we need to take a look at in the future is how our 
infrastructure that we depend on has now become both weapon and 
target and how they can be interchangeable. This is very 
significant. The fact that airplanes were not anticipated as 
weapons of mass destruction certainly does not call for the 
abolition of commercial air transport but what it does say is 
we need to respond in a totally different way to airport 
security or to construction of buildings, and that was 
particularly hammered home when the Nuclear Regulatory 
Commission admitted 1 week after the accident that it had 
failed to do the calculations which would demonstrate that our 
reactors could withstand those hits on the World Trade Center 
and the Pentagon. And we are still waiting for the numbers to 
be crunched.
    That is a major shift in thinking and if we are going to 
proceed in the 21st century on a technology-based society, it 
is up to the leadership of this Nation to consider that dual 
role. And when you choose to go down a technological path, you 
had better be prepared for the boomerang.
    Now I am going to get into some of the specifics that I 
have observed in terms of the nuclear power situation and then 
I would also refer you to a report that we produced last 
October and it is available on our Web site, called ``Here 
Today, There Tomorrow: Commercial Nuclear Reactor Sites as 
Terrorist Targets.''
    Ms. Schakowsky. Mr. Chairman, I would ask that we insert 
that into the record.
    Mr. Horn. Without objection.
    Mr. Kraft. I do have additional copies available and this 
is on our Web site. Regrettably, I mailed this to the Illinois 
delegation last October and because of the anthrax situation, 
you may not have received it. So I apologize for that.
    The second thing that struck me over the weekend as I was 
preparing for these remarks was a comment that Albert Einstein 
supposedly made, and that is that ``A clever person solves a 
problem; a wise person avoids it.'' What I want to get into now 
are avoiding some future problems in a strategic kind of way; 
specifically dealing with nuclear power and with nuclear waste.
    As we have observed situations since September 11th and 
watched the NRC's rather lethargic, uneven response to the 
tragedy, we have to hammer home a few points. The first is that 
if you are going to rely on reactors in the 21st century, you, 
the leadership of this country, must certify to the public that 
those reactors belong in the 21st century and can withstand 
21st century threats. If they cannot do so, they do not belong 
here.
    Shipbuilding changed after the Titanic hit an iceberg. We 
need to make the same kind of shift in the nuclear power 
industry. The set of criteria that is used to make that 
determination is called the design basis for the reactor. I 
would submit to you that the NRC needs to revise, re-examine 
and rewrite the design basis, not only for the future reactors 
that it anticipates so that they can show that they can hold up 
under these threats, but they are going to have to take a look 
at re-examining the design basis for reactors that are 
permitted to operate and who are applying for plant life 
extension for an additional 20 years because these will be the 
reactors that will be selected as future terrorist targets. If 
they cannot withstand the terrorist threat, they must be 
closed.
    We would further point out that the spent fuel pools which 
are a point of controversy both in terms of the Yucca Mountain 
issue coming up, and just the operation of reactors in the 
future, must be significantly upgraded and hardened, from an 
engineering standpoint. Security at reactor sites needs to be 
greatly enhanced, and the sites themselves may actually have to 
be redesigned in order to survive credible terrorist threats in 
the 21st century.
    We think the NRC has failed in its regulatory practices and 
we need to take a look at why that has happened. And again, I 
think it would be useful to look at Einstein's quote to move 
away from an infrastructure that has inherent danger to an 
energy infrastructure that does not have the same dangers that 
nuclear power would have. And this would be to aggressively 
promote renewable energy alternatives, efficiency and something 
that was actually touted very highly in the Bush energy plan, a 
concept called a ``distributed generation,'' so that 
transmission systems are not disrupted.
    I will stop there and be glad to answer any questions you 
might have. Thank you.
    [Note.--The report entitled, ``Here Today, There Tomorrow: 
Commercial Nuclear Reactor Sites as Terrorist Targets,'' may be 
found in subcommittee files.]
    [The prepared statement of Mr. Kraft follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.030
    
    [GRAPHIC] [TIFF OMITTED] T7016.031
    
    [GRAPHIC] [TIFF OMITTED] T7016.032
    
    [GRAPHIC] [TIFF OMITTED] T7016.033
    
    [GRAPHIC] [TIFF OMITTED] T7016.034
    
    Mr. Horn. Well, thank you.
    We will have a few questions and then we will move ahead to 
panel two.
    Do any of my colleagues want to ask any questions of the 
panel now? They will be around, but we have four people on 
panel two.
    Go ahead, Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman.
    Dr. Lumpkin, it is nice to see you again and I know that I 
see you on the airplane quite often as you traverse to 
Washington, DC, so I know that you are working to coordinate 
what is happening in the State of Illinois with the Federal 
Government.
    Dr. Schneider just talked about the potassium iodide that 
has been suggested that States have, and I do--could you 
explain what is the policy in Illinois right now in public 
health as far as--what I had heard was that Illinois had not 
made a decision or had not signed on to receiving that or to 
have a stockpile in case something happened.
    Dr. Lumpkin. Well, that is actually not the case. First of 
all, Illinois is one of the few States, if not the only State, 
that has a separate Department of Nuclear Safety, and we have 
had some discussions on the issue of potassium iodide. The 
Department of Nuclear Safety just recently announced it has 
purchased 350,000 doses, which it will be making available to 
the public in the evacuation zone; I think it is a 10-mile zone 
around each of the facilities.
    We have some concerns about that particular process, even 
though we will be making that available, because studies in 
other areas where it has been distributed, indicate that the 
people, after a year, have not been able to find or locate 
those pills. So we are also using State dollars to purchase 
potassium iodide as part of our State pharmaceutical stockpile. 
We are probably one of the few States that has a pharmaceutical 
stockpile. Primarily, we have antibiotics and mark one kits and 
other things for use by first responders in that stockpile, but 
we also will requisition potassium iodide so it will be 
available at the evacuation centers. So really our strategy is 
going to be two-fold.
    We have some concerns about the Federal distribution. For 
instance, there is quite an extensive disclaimer that is 
required to be given to each person receiving potassium iodide, 
disclaimer about the Federal program. We believe that we can 
use State dollars that we get from industry, which is wanting 
us to distribute them, without going to the Federal program, 
and that has been our intent.
    Ms. Biggert. Thank you very much.
    And then, Mr. Kraft, I know that we have had a nuclear 
waste problem and have been working on it for quite a while, 
but I certainly do not think we should abandon nuclear power as 
a source of electricity as a result, and certainly 52 percent 
of our electrical power in Illinois comes from nuclear and is a 
clean source of power.
    Given the amount of power generated without any emissions 
and the resulting air quality benefits, nuclear power I think 
has to remain part of our energy supply. And there is research 
that is being done at Argon National Laboratory, which is in my 
district, to reduce the volume and toxicity of nuclear waste 
and it really is pyroprocessing technology and transmutation 
and has really been able to reduce the amount of waste and put 
it into a solid which then can be transported much more safely 
and will also not be a hot--what they call a hot product, for a 
considerably shorter period of time. It actually reduces it to 
300 years instead of 10,000 years.
    Does your organization support such research or are you 
opposed to anything nuclear?
    Mr. Kraft. We do not have any problem with research. We 
would merely ask that, again, are you focusing so narrowly on 
solving an immediate problem that you miss the forest? Some of 
the statements you made, I would take some exception to. 
Nuclear power does produce emissions, it does not produce 
global warming emissions, although as a matter of fact, the 
fabrication of the fuel does. It is the largest producer of CFC 
and ozone layer damaging chemicals on the North American 
continent. But it does produce denoble gases, they are 
routinely released into the atmosphere. You have water 
emissions from the routine operation of reactors and then if 
something goes wrong, you have unanticipated emissions. So to 
say it is emission-free is not quite accurate.
    In terms of your description though of the transportation, 
I think that is an excellent example of the future problem that 
has not been anticipated and which was brought up and reflected 
earlier here today when the reference was made to the 
individual who was interested in making a dirty bomb. Materials 
for the dirty bomb will come from shipments like those that you 
describe, in the future. Just the Yucca Mountain project 
itself, we anticipate over 68,000 shipments going through 
Illinois in a 38-year period.
    This is the infrastructure that you buy into when you 
continue this technology. And to make the claim that we can 
make it 100 percent failsafe and contain all that material, 
especially when you have a determined terrorist threat out 
there that is not managed yet, really I think stretches the 
imagination.
    So we are not opposed to research, we are merely saying for 
your dollar spent, would it be better to get away from a 
technology that buys you into that tar baby or is it better 
spent on a technology that still gives you the electricity that 
you want but does not increase nuclear proliferation, like 
pyroprocessing does.
    So those are the hard strategic questions Congress needs to 
ask before you ask the front line defenders here to pick up the 
pieces of dirty bomb explosions and radiation assaults and 
finally perhaps even----
    Ms. Biggert. The NRC chairman recently referred to the 
security at the nuclear power plants as the gold standard in 
the area of industrial security. Would you agree with that and 
do you think that other facilities pose the same risk or 
similar risk as nuclear and should have that security equal to 
nuclear security?
    Mr. Kraft. The second part of your question; yes, I think 
other industries do have a similar kind of risk. The chemical 
industry could be pointed to, for example, as having that type 
of risk and should be required to have enhanced security as 
well. I cannot speak to direct knowledge of what type of 
security has occurred at nuclear reactors since September 11th, 
but I would welcome it. And I certainly would not want to 
personally challenge it right now. I have spoken with reporters 
who have been onsites just recently--Channel 5 News was out at 
Dresden, and they do report significant improvements in 
security.
    Whether those are adequate, we will not know. But one thing 
I will point out is that the same time the NRC is making those 
boasts, just prior to the 11th, they were allowing--they were 
contemplating allowing the industry to more or less regulate 
itself and test itself on plant security, at a time when they 
knew that those plants failed 50 percent of the force-on-force 
tests----
    Ms. Biggert. Thank you. I do not mean to cut you off, but 
my time has expired. Thank you, Mr. Chairman.
    Mr. Horn. The gentleman from Illinois, Mr. Kirk.
    Mr. Kirk. Thank you, Mr. Chairman. Just briefly, I will 
have to leave in a minute for going out to inspect the new 
aircraft doors that have been installed on United Airlines 
aircraft to prevent access to the cockpit.
    But my mother lives in Evanston, she lives on Main Street 
in Evanston, Chief Wilkinson. How large is the Evanston police 
force?
    Mr. Nilsson. The Evanston Police Department has 162 sworn 
police officers.
    Mr. Kirk. And how large is the Fire Department?
    Mr. Wilkinson. 110.
    Mr. Kirk. 110. So we have got roughly 200 first responders 
in a suburban--if the Sears Tower was hit, a la September 11th, 
or we had a huge fire at Zion, the nuclear reactor, how would 
you be tasked to assist in that effort under the current 
system. Chief Reardon is here, but I am going to put you on the 
spot since you are a front line police department.
    Mr. Wilkinson. OK, there is a structure in place, it is 
relatively--the stricken community makes a request at various 
levels and there is an automatic response then based on that 
request. So if Chicago were to ask for X,Y,Z and we happened to 
be X, we would then respond. It reduces communications down to 
a smaller level and it is a predetermined structure. And we 
respond based on the need of the stricken community.
    Mr. Kirk. Do they call you via telephone, is there a radio?
    Mr. Wilkinson. No, it is done via radio. There is a backup, 
of course, telephone call should there not be a response. The 
central dispatch area then for a MABAS division--we are broken 
up into a number of divisions--will then initiate the call, 
anticipate and wait for a verbal response from the community 
that should be responding. Should they not respond or not be 
able to, they automatically move to the next level and they 
will also back it up with a phone call.
    Mr. Kirk. If we had a fire at Zion, we would have to 
probably evacuate close to 100,000 people, so our need for fire 
and police personnel would be vast. Have you ever been tasked 
to look into how you would respond to a huge downtown 
contingency or a huge contingency at one of our reactors? Has 
Evanston gone through that yet?
    Mr. Wilkinson. We have done it only fortunately at a table-
top level, and we realize that an initial incident, as it gets 
larger or is large, we have a limited capability in dealing 
with that incident. And until we can get enough resources for 
whatever our needs are, we can only handle so much of that 
incident and we have to accept that there may be losses as a 
result.
    Mr. Kirk. Thank you. Mr. Chairman, thank you.
    It is not so bleak. We have--the reserve manpower for the 
Federal Government is Great Lakes Naval Training Center where 
we have got access to 25,000 people to help out the first 
responders, but chief and commander, thank you for the ground 
truth here. I think we have got a long way to go in where we 
are going.
    Mr. Wilkinson. Yes.
    Mr. Kirk. Thank you very much for having me, Mr. Chairman.
    Mr. Horn. Thank you very much for being here.
    Let me ask the commander and the chief, are there written 
compacts for, say, fire engines and all, so they do not have to 
do it after the fact, but you know what you are doing ahead of 
time. If there is a fire here or a police need there, how are 
we dealing with this in Illinois?
    Mr. Wilkinson. These predetermined responses are broken 
into categories. One would be fire, one would be ambulance, one 
would be hazardous materials, water rescue. They are broken 
into a category. Not to say you could not draw resources from 
more than one category, but it is done by agreement, it is done 
ahead of time. Each community establishes what they feel their 
need for their types of responses would be, communicates to 
these other communities, do you agree to this and if they say 
yes, OK, we go with it. It is done under the Mutual Aid Box 
Alarm System agreement, the generalized contract that everybody 
agrees to, and it is really all predetermined and we can draw 
in a tremendous amount of resources. However, it is designed to 
try and not short anyone else in terms of resources. So 
sometimes, as your incident grows, the travel distance may 
increase, the time of response--you know, various things are 
factors, but it is pretty much all predetermined. Not to say 
that you cannot ask for special equipment any time that you 
want.
    Mr. Horn. I am going to take 2 minutes of my 5 to ask one 
question here and then I will turn over to the ranking member.
    I am interested, Dr. Diaz, and could you explain the plan 
for distribution of vaccines in the event of an outbreak of a 
communicable disease? How are we going to do it in Cook County 
and Chicago?
    Dr. Diaz. I can only speak for the city of Chicago 
specifically. This is an area that we spent a lot of time 
writing a plan and even operationally testing that plan in 
stages. We are currently in the process of a series of staged 
exercises testing that plan. We have looked at our health force 
in terms of our public health work force and we have looked at 
our population. Any plan that is in place for the distribution, 
for instance, of medications or vaccines, one has to take into 
account the number of people that you have to distribute to, 
the work force behind you and the actual mechanism of moving 
the materials. And we have addressed all of those issues in 
fairly great detail. We continue to improve upon that plan as 
it exists.
    What I would comment on is that it is a plan--any plan is 
always a draft plan and one continues to refine. And so we work 
very closely with our Fire Department in terms of 
transportation issues. We have been working with our GIS 
Department in terms of actually mapping down to the 
distributionsites that we have chosen and doing mock ups of 
transportation to those sites and public work force 
distribution across those sites.
    Mr. Horn. Excuse me right there. I am not quite clear, do 
we have doctors and pharmacists, clinics? How are we doing it?
    Dr. Diaz. I was just getting ready to address the work 
force itself. We know our break points in terms of based upon 
how many people we need to give medicine to, how many work 
force individuals we need and have mobilized them within our 
own public health work force. Additionally reaching out to 
other city partners that can provide infrastructure in terms of 
nurses or other work force. And with the Federal moneys that we 
are getting, we are working with other agencies like medical 
societies to bolster volunteers within the pharmaceutical, the 
physicians and nurses, that would help supplement our work 
force if we reached our break point in terms of needing more 
infrastructure and help.
    Mr. Horn. Thank you. Five minutes for questioning.
    Ms. Schakowsky. First let me express again my gratitude to 
this panel. I knew it would be worthwhile to come to Chicago, 
but after hearing the testimony, I think that is even more the 
case, to hear from your perspective what we need to be doing at 
the Federal level.
    I wanted to--for some months now, I have been urging the 
State of Illinois to accept the potassium iodide pills and was 
given a number of excuses. One was that people would become 
complacent and would not evacuate, which seemed to be an 
absolutely nonsensical notion. I give the people of Illinois a 
little more credit if they would take the pill and then head 
for the hills. And the other was that it only protects against 
one thing, and that is thyroid cancer, which also seems a 
ridiculous excuse, because that would say we should not take 
flu shots because it only protects against the flu. And finally 
I guess you said today something about a disclaimer or 
something that the Federal Government had.
    It seems to me as the most nuclear State in the country, 
that an offer of free potassium iodide from the Federal 
Government would be one that would be snapped up immediately. 
And I am mystified. Could you explain, Dr. Lumpkin?
    Dr. Lumpkin. Certainly. I think that many of us have 
experience that everything that claims to be free is not free. 
The State has a commitment; it was announced on June 26 that 
distribution to the public will begin this month, that we will 
purchase that and that we have used State dollars to purchase 
it and include it in our pharmaceutical stockpile to be 
positioned at evacuation centers.
    So, I think we have had a lot of discussion within the 
State and certainly we have had input from the congressional 
delegation and, based upon that, the Department of Nuclear 
Safety did change its policy and is now moving forward with a 
distribution to the public within the 10-mile radius and----
    Ms. Schakowsky. Funded by Exelon in part at least. Why not 
by the Federal Government?
    Dr. Lumpkin. Well, we were concerned about the attached 
regulations that were associated with this particular allotment 
from the Federal Government. And so, because we were 
uncomfortable with that, we did move to a separate way to fund 
the purchase. I think the key thing is that the KI was 
purchased. It is a relatively inexpensive medication and it is 
purchased and being distributed.
    Ms. Schakowsky. And the change in view was why?
    Dr. Lumpkin. Well, that change was--again, the Department 
of Nuclear Safety is the lead agency for that. We have had some 
discussions; primarily it was an internal change within the 
Department of Nuclear Safety. I could not really testify to 
what their thinking was.
    Dr. Schneider, is a 10-mile radius in your view sufficient? 
I know in your testimony you indicated more.
    Dr. Schneider. As I indicated, the experience in the 
Chernobyl area would indicate that a 10 mile radius is perhaps 
too small. Childhood thyroid cancer is very uncommon, so when a 
case occurred, it is very likely related to the Chernobyl 
accident. If you look at the map around Chernobyl and look at 
where the cases occurred, you would readily notice that it was 
well beyond the 10 miles. In addition, if you looked at the 
distribution of the released iodine on different days, the 
extent of the spread is also well beyond 10 miles. So I think 
it is well to consider a broader distribution than 10 miles.
    Ms. Schakowsky. Could I ask one more question, Mr. 
Chairman, of our public health officials?
    Mr. Horn. Sure.
    Ms. Schakowsky. The issue of work force capacity, we hear 
in so many different contexts of the nursing shortage and just 
the shortage of health care professionals. Under current 
circumstances, not to mention were there some sort of a medical 
emergency on a grand scale, I would like you just to respond to 
how we will actually, in terms of capacity, respond to a 
biological, chemical or nuclear attack, in terms of our 
capacity in numbers and what we should do about it.
    Dr. Lumpkin. Well, in Illinois, we have had in place an 
emergency medical disaster plan since the early 1990's that 
looks at the State as a whole. This plan was developed in 
response to concern around the New Madrid fault, which could 
hit southern Illinois in a Richter 6 earthquake. That plan 
looks at mobilizing resources from areas outside the incident 
much as was discussed with the MABAS approach--medical 
resources, nurses and physicians. We currently have four teams 
that are in place on call 24 hours a day. We are expanding 
those, we hope, to about 16 teams within the next 12 months of 
physicians, nurses and paramedics who would be able to respond 
immediately if there is an incident in the State. These 
individuals are getting special training in weapons of mass 
destruction.
    After the event occurs, the question is then how do we 
mobilize the resources. We are looking at issues of rapid 
licensure or certification of individuals who come in from 
other States, mobilization of hospital resources; again, the 
major limitation is going to be the work force and using 
volunteers from other States through a system of certification.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Horn. Thank you. And we now will go to James P. 
Reardon, the Fire Chief of Northbrook, Illinois and the 
President of the Mutual Aid Box Alarm System and the Vice 
President of the Illinois Fire Chiefs Association. He is a 
member of the Illinois Terrorism Task Force.
    So we are glad to hear from him.
    Ms. Schakowsky. Are we excusing this panel?
    Mr. Horn. We would like some of them, if you could, but 
otherwise you are free. Thank you. But if you would like to 
stay, fine.
    Mr. Reardon.

  STATEMENTS OF JAMES P. REARDON, FIRE CHIEF, NORTHBROOK, IL; 
RAYMOND E. SEEBALD, CAPTAIN, U.S. COAST GUARD, PORT OF CHICAGO, 
 ACCOMPANIED BY GAIL KULISH, COMMANDING OFFICER, ATLANTIC AREA 
 STRIKE TEAM; EDWARD G. BUIKEMA, REGIONAL DIRECTOR, REGION V. 
   FEDERAL EMERGENCY MANAGEMENT AGENCY; AND JAYETTA HECKER, 
    DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. Reardon. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to speak today and say 
hello to some old friends that I have not seen for awhile.
    Also, I would like to tell you that since September 11th, I 
have never in my, since 1967, experience had the opportunity to 
work so closely with State and Federal officials from various 
agencies, including some of the individuals sitting at the 
panel here, where not just a working relationship has 
developed, but also I would say a friendship and partnership.
    What I am going to do today, I have two documents which I 
do believe you have, one is a two-page summary and the other is 
a backup document that I will refer to from time to time.
    First, let me talk about MABAS as an introduction. In the 
State of Illinois, there are 40,000 firefighters approximately 
and 1200 fire departments. MABAS, the Mutual Aid Box Alarm 
System, has been around since the late 1960's, and it is the 
structure for the statewide mutual aid plan, which evolved 
January 2001, prior to September 11th and the World Trade 
Center.
    A three inch thick document sits on this CD and although 
fire chiefs may not be able to agree in the State of Illinois 
on the color of a fire truck, we can all agree that this plan, 
it is about time we pulled it together so we can mobilize, as 
Mr. Chairman, your question, a tremendous amount of resources, 
whether it be fire trucks, ladder trucks, squad companies, EMS, 
paramedic transport units, hazardous materials teams--36 in the 
State of Illinois--technical rescue teams of which currently 23 
and eventually will evolve to somewhere over 30, paramedics to 
assist the health system in immunization and prophylaxis type 
treatment for citizens, mobilization of the predeployed units 
that Dr. Lumpkin had referred to; and do so, so we never 
deplete any area any more than 20 percent of its resources.
    We can respond, we will respond. Our limitations are based 
upon the technological equipment. With the new challenge of 
WMD, weapons of mass destruction, and the training and 
education that is needed for the various first responders.
    So we do have a system in place. We will do our darndest to 
serve based upon the limitations.
    And with that, let me talk about a few of the things that 
hopefully you will find of interest and Federal agencies and 
Congress can assist us to do a better job on the street Monday 
through Sunday, and heaven forbid, when the terrorist strikes 
again.
    First, in the State of Illinois, we do not have an urban 
search and rescue team. There are 28 in the Nation, we are 
working extremely hard to develop one using existing 
infrastructure, our 23 technical rescue teams, to develop the 
needed core training requirements. Through the State of 
Illinois' Terrorism Task Force, Matt Bettenhausen, as well as 
Mike Chambliss, from the Governor's Office and Illinois 
Emergency Management, we have been able to receive funding to 
bring the technical rescue teams up to the minimum standards 
and we are heading toward hopefully the direction of putting in 
place a mobilization package that meets all of the FEMA 
requirements for a USAR team. Unfortunately, we have not 
received the support from FEMA in Washington, at least at this 
point in time, and there is a letter in your packet most 
recently received, where it does not appear they are supporting 
the creation of any new teams. We feel in the State of 
Illinois--and this would be a statewide team--certainly city of 
Chicago warrants the need to have one in place here so we can 
mobilize it quickly and get to the business of extricating and 
rescuing people that might be subject to the collapse of a 
structure all the way down to natural disasters such as the 
earthquake threat in southern Illinois.
    Training and education, three points I would like to 
mention from the Federal level:
    First, there are training and education opportunities from 
many, many Federal agencies that can be applied at the local 
level. We appreciate that, but there is no single coordination 
point. What that means is that we are missing opportunities to 
send people to the right training. People are going to the 
training without the local police and fire agencies being aware 
that they are sent. We need a single point of coordination with 
all the Federal agencies and the Federal training so that it is 
kind of a clearinghouse.
    No. 2, we do not have any regional training facilities to 
bring together police, fire, public works, health officials, 
first responders. I think a wise investment, with certain 
criteria from the Federal Government, to establish regional 
training facilities across the United States, certainly here in 
Illinois, using such things as like the Glenview Naval Air 
Station, which is currently closed, but 25 municipal agencies 
have pulled together in a partnership to make that a regional 
training center. An investment would be wise, because without 
the training, we cannot have seamless sustained operations.
    No. 3, in none of the Federal programs is there any--so far 
as we are able to identify--assistance with overtime funding so 
we can send police and firefighters to the training that is 
available. Once we do that, we need to backfill, otherwise 
local levels of service for day-to-day emergencies are reduced.
    Domestic terrorism, weapons of mass destruction equipment. 
A host of items: First, we believe that all the Federal funding 
should go through a single coordination point, preferably in 
Illinois. We can standardize and provide a sustained operation 
in that manner.
    No. 2, interoperability, there are several boards through 
the International Association of Fire Chiefs at the Federal 
level to standardize equipment that we would use out in the 
street in servicing a response to weapons of mass destruction, 
nuclear, biological and chemical. Vendors are selling products 
that I am calling snake oil out there. We need to have those 
validated through a single source so that if we respond to, let 
us say, California, Florida, or they come here, we are all 
using similar or the same equipment; again, for seamless 
sustained operations.
    Technology transfers are critical. FEMA has a grant program 
with a national technology transfer center. We need that 
equipment out in the street and the field. Example that I cite 
in here is some device inside the fire truck or the ambulance 
that would detect, early on, biological, chemical or a nuclear 
release, before we commit first responder troops inside of a 
hot zone where they have little to no chance of survival.
    No. 3, consider adopting a matrix, one is also contained in 
your packet, that standardizes the training, the equipment and 
the roles of first responders, regardless of their capacity in 
police, fire, public works or the health professionals.
    Next, communications interoperability; as I genuinely call 
it a sucking chest wound. We cannot talk to one another. We 
need to be able to send data to one another, we need to look at 
encryption for secure nets so that we can talk with our Federal 
counterparts and our Federal counterparts can talk with us.
    Office of Homeland Defense. We support it. We believe the 
one-stop notion is needed. There are two organizational charts 
in your packet; one is as it is now and the other as proposed. 
The only thing that we see missing that would encourage some 
consideration over is there is no box within the wiring diagram 
or organizational chart that identifies a local advocate of 
government, a liaison that reports near the top or to the top 
that can tell the Director of Homeland Defense that it is 
working at the local level; similar to what was done during 
BRAC when they closed bases and relocated military 
installations.
    Federal process. As you know, local government, we can 
implement stuff pretty quick. That is probably the benefit of 
being smaller than a Federal agency in most cases. However, the 
way we deliver our system is asystematic. We rely on the 
police, they rely on us; public works is a support structure 
for both; the health profession; all of us work together and 
often with a new challenge, we are going to need Federal 
assistance. We need to find a way to have the Federal system 
less bureaucratic and more simplified so the dollars can get 
down to the local level quickly. Without that, we are going to 
have holes in our system. Holes in the system, we cannot do the 
job that people perceive or we're going to be expected to do.
    FIRE Act funding. There has been discussion about including 
the FIRE Act funding as part of the Homeland Defense $3.5 
billion. We disagree, that it should stay separate, both of 
them. The FIRE Act funding was intended to assist in the day-
to-day delivery of fire, EMS and general emergency management 
services, not domestic terrorism and weapons of mass 
destruction. Combining them will dilute it and will do one of 
two things; either damage our ability to do our job on a day-
to-day basis or damage our ability to respond and provide 
service during acts of domestic terrorism or both.
    Mutual aid consortiums. In the State of Illinois, we have 
got a plan. I am told it is one of the best in the Nation, that 
we are leading. We should not be penalized for that, we should 
find the incentives created by the Federal Government to 
encourage local municipal consortiums from the standpoint of 
mutual aid, sharing of resources and building on existing 
infrastructures versus creating new ones.
    I think another point is our elected officials, through the 
Federal Government, should receive some exposure to consequence 
management, but more so, clean up and recovery and financial 
recovery actions--lessons learned from September 11th. Any 
community, we know what happened across the Nation, but I think 
any city, their elected officials, if they have experiences in 
that, are going to be more well prepared. And I think if we set 
a national standard, it will become a better way to translate 
that at all levels of government--Federal, local and State--so 
we can work together during times of crisis.
    Finally a local credentialling and accountability system 
that has a national use needs to be achieved so that when 
somebody comes in on the scene of an incident, we are able to 
validate who they are and provide safety and scene 
accountability as to where they are working. I know that the 
Administrator of the U.S. Fire Administration, Mr. Dave 
Pauleson, is working on that. I would encourage your support so 
we can put something like that in place.
    Finally, inside your document is a bullet sheet, a briefing 
page from the International Association of Fire Chiefs. I would 
encourage this committee as well as all of Congress to turn to 
the International Association of Fire Chiefs as an umbrella 
agency that has high credentialling in giving recommendations 
and thoughts to Federal plans so we can all respond together 
and assist the public when we are challenged by our new threat, 
domestic terrorism.
    Thank you, sir.
    Mr. Horn. Well, thank you. You have been very thorough on 
this and there were a lot of things that we have heard in other 
places and there are a lot of things that have not been heard 
and you helped us deal with that.
    I now want to have Captain Raymond E. Seebald, the Coast 
Guard Captain for the Port of Chicago.
    [The prepared statement of Mr. Reardon follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.035
    
    [GRAPHIC] [TIFF OMITTED] T7016.036
    
    Captain Seebald. Mr. Chairman, and members of the 
committee, thank you for inviting me and it indeed is a great 
honor to be here today to tell you a little bit about what we 
have been doing in this area and especially what my troops have 
been doing, because I am very proud of them.
    If you would have seen our office this morning, you would 
have seen an office where very few people were there, because 
the majority of our work is actually preventative in nature. We 
go out every day--people are deployed to our vessels and to 
water-side facilities to inspect both security and safety 
areas.
    Right now, there is a security patrol going on. Petty 
Officer Corpus is on board his vessel looking in areas that we 
have pre-identified as high risk areas, and he is looking 
around for potential terrorist targets, people that might be 
observing those facilities and a whole host of activities. But 
he is also looking for whether the lights are properly watching 
on the buoys, whether the other boaters are intoxicated, 
whether our commercial vessels that we also inspect from 
initial days of inspection, whether they are operating properly 
and carrying passengers, more than six people and some are up 
to 900 passengers, whether they are operating properly. So we 
are a multi-mission service.
    We are also a military service and a civil service. Those 
different avenues and the way we can switch back and forth 
really suit well with our new role in homeland security, 
protecting the homeland, because one, we are already quite 
integrated into the police departments, the fire departments 
and the other local responders. We are a local responder 
indeed, along the water side area and in the ports of the 
United States. But we are also able to surge during emergency 
operations. So we have a preventative side, but we also have a 
response side as well.
    In Washington, DC, there is a national response system that 
entertains calls from around the United States for oil, 
hazardous chemical and potential terrorist attacks and 
immediately, within minutes, will notify a Federal coordinator 
if there is a threat to the coastal zone. When I get that call, 
I dispatch my teams and if I am overwhelmed, I can immediately 
call on our special forces, which is our strike team forces, 
and we have three of those strike teams and I am very honored 
and privileged today to say that joining me is Gail Kulish, who 
is the Commanding Officer of the Atlantic Strike Team. She is 
sitting right there in the front row and she will be helping me 
with some of the more technical questions that might come up 
later on. But we are very happy with that capability. That 
capability, that special strike team capability, was employed 
for the anthrax scare and actual discovery of anthrax. Their 
teams were used to go into the area and conduct decontamination 
operations.
    So all of these activities actually take place without any 
Federal Presidential mandate or emergency declaration declared. 
This is under the National Contingency Plan. Each Captain of a 
port is empowered and essentially carries a blank check from 
the President to immediately respond. There are a lot of 
conditions, to make sure it is all legal and we have a bunch of 
lawyers that help us make those decisions. But it provides, and 
we are very empowered to immediately respond and to act in the 
event of oil or hazardous chemical and potentially biological 
impacts as well.
    Now what are we doing on the planning and prevention side? 
I think you would have been very happy to see us as we both 
initiated and facilitated a meeting of all the local responders 
about 2 weeks ago, as we begin stepping through what we believe 
are the most likely scenarios for attack in the Chicagoland 
area and the region. You would have been very happy to see 
FEMA, and most people at this table, at that meeting, including 
the Chicago Fire Department, Police Department, FBI and all the 
local responders. We are not only facilitating those exercises, 
but we are training everyone in what we think is the most 
effective method of approach to these types of incidents and it 
is called the use of the incident command system.
    At the very top of that management system is the unified 
command system and it is a management group at the top that 
includes Federal, State and local representatives. So we have, 
from the Federal entity, Deputy Governor Matt Bettenhausen from 
the Illinois area; from the city of Chicago, Cortez X. Trotter, 
who is in the Office of Emergency Planning, and myself. And we 
all agree on where we should deploy the resources, the amount 
of those resources, in this whole area. And that alone has 
created just a very smooth relationship in terms of how we 
interact at all levels of government.
    And then how to use our resources. If you walked on the 
waterfront, that petty officer that I mentioned earlier, after 
his 4 hour tour on the boat is finished, he would then pass on 
what he observed to the Chicago Police Department, who is out 
there as well in their boats, they are patrolling the same 
areas. After that gentleman finishes, he then briefs the 
Illinois Department of Natural Resource boat that is patrolling 
the exact same area. That is just one operation where we are 
really working closely with local and other State agencies.
    We are also involved with the ATTF and as mentioned 
earlier, the Chicago Terrorist Task Force and we are very 
integrated with all those task force organizations.
    I think I will close and we will be happy to answer any 
questions later, both myself and Gail Kulish. Thank you very 
much.
    [The prepared statement of Captain Seebald follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.037
    
    [GRAPHIC] [TIFF OMITTED] T7016.038
    
    [GRAPHIC] [TIFF OMITTED] T7016.039
    
    [GRAPHIC] [TIFF OMITTED] T7016.040
    
    Mr. Horn. Well, I will tell you, I would like to have 
Commander Kulish now come up to the table because I have a 
couple of questions.
    You are Commanding Officer, Atlantic Area Strike Team. Does 
that include work on containers that come into the harbors and 
that have immigrants in them that are trying to get into the 
United States? Do we have any of those situations here? Because 
we sure do on the west coast.
    Commander Kulish. The National Strike Force responds to 
releases of oil, hazardous materials, biological pollutants, 
contaminants. Containers--we have certainly dealt with a number 
of containers as leakers and sources of hazmat pollutants, 
etc., and we have techniques and the capability to respond to 
those. With respect to the law enforcement aspects of the 
illegal migrants and those other things, the National Strike 
Force would only residually deal with those and turn it over to 
appropriate agencies.
    We are a tactical force for hazmat response.
    Mr. Horn. Well, on the west coast, starting about 10 or 15 
years ago, we had the Coast Guard board the ship that has the 
container, so they cannot pull that game of oh, asylum, that is 
nonsense, and you never see them again unless maybe they are 
flying a plane and hitting a building or something.
    So I am curious, you are saying you do not have too much of 
a problem here then, is that it?
    Commander Kulish. No, sir, I'm just really not the 
appropriate person to address that. In my previous assignments, 
I have done Coast Guard Law Enforcement, boarding 
responsibilities and the Captain of the port has those 
authorities and those resources to board and do board routinely 
and do law enforcement functions. And I can defer to the 
Captain for that.
    Captain Seebald. Yes, each Captain of a port would receive 
a notice from vessel agents when a vessel is about to arrive at 
the United States. And they specify many things and now a new 
law that just thankfully has been passed that allows us 96 
hours to get that information. Before it was 24 hours and 
subsequent to September 11th that law has been extended now to 
the 96-hour rule.
    Agents now provide us with a whole host of information.
    Mr. Horn. Excuse me, let us explain what a 96 rule is.
    Captain Seebald. Yes, sir. Before, foreign vessels had to 
only give us 24 hour advance notice of arrival before entering 
into our ports. And now, subsequent to September 11th, we have 
extended that requirement now to 96 hours and that has been--it 
is in the process of being finalized. That gives us much more 
time now to look at cargoes, the types of people that are on 
board the vessels, the crew makeup and where the vessel is 
coming from.
    And together with that information, we have a matrix that 
helps us identify and target which vessels we do want to go 
aboard. And in this area, when we do decide to go aboard a 
vessel, we do a joint boarding with Immigration, Customs 
Service and other local law enforcement, so that we look at a 
whole host of things that might be a problem on this vessel. 
Recently, only 2 weeks ago, we conducted a boarding like that 
in this area. Unfortunately we did not discover anything, but 
it was--it just goes to demonstrate this interoperability and 
how we are working very closely with other agencies now for 
almost every activity that we do, we conduct in this area.
    Mr. Horn. Thank you. That is helpful. Any questions on 
this----
    We have got two more but if you have any on the Coast 
Guard.
    Ms. Schakowsky. I will, but I would like to hear the 
others.
    Ms. Biggert. Mr. Chairman, could I ask a question?
    Mr. Horn. Sure, please do.
    Ms. Biggert. Captain Seebald, what efforts are you making 
to plan for and respond to the worst case scenario that you can 
envision involving a chemical, biological or nuclear weapons of 
mass destruction in the coastal zone and what are the 
parameters of the coastal zone?
    Captain Seebald. Well, the coastal zone is pretty much 
right at the coast. We share responsibility with the EPA. EPA 
is pretty much inland of the coastal zone and we are anything 
offshore or any significant marine transportation related 
facility that might be right on the coast, we would respond if 
there was a release of oil, hazardous substance from those 
facilities or even if there was an explosion that resulted in 
those releases, we could open the CERCLA fund and begin funding 
a cleanup and response.
    We are, as I mentioned earlier, both with our harbor safety 
committees and harbor security committees, we are stepping 
through what we think is the most likely scenarios. I do not 
really want to get into so much the specifics of those, but 2 
weeks ago, that first exercise was the beginning of that effort 
to look at exactly what we are talking about here and to begin 
planning our responses jointly with both the State and the city 
of Chicago in this area and other safety and security 
committees in other areas where I still have authority.
    Ms. Biggert. How will the Chicago Marine Safety Station 
facilitate the intergovernmental cooperation between your 
agency and the State and the city?
    Captain Seebald. Well, that facility, the one that has been 
funded now, will put all three of us--the Department of Natural 
Resources for the State and also the Chicago Marine Police 
Unit, who we work with every single day--it will put us 
physically in the same building. Once you are physically in the 
same building, all those relationships you had before are only 
going to be improved, and we think it will be not only a great 
place for all of us to be together but right in the area which 
is the highest risk from at least my zone.
    Ms. Biggert. You meet really daily now and it will make it 
much easier.
    Captain Seebald. Yes.
    Ms. Biggert. Great. Thank you. Thank you, Mr. Chairman.
    Mr. Horn. Thank you. We appreciate all you do, it is a 
wonderful part of our military, as you said, and the civil 
service also.
    Let us go now to Edward G. Buikema, the Regional Director, 
Region V, Federal Emergency Management Agency [FEMA]. We are 
glad to see you today too.
    Mr. Buikema. Thank you, Mr. Chairman and good morning, 
members of the committee.
    FEMA Region V includes the States of Illinois, Indiana, 
Michigan, Minnesota, Ohio and Wisconsin, representing a 
population of approximately 51 million people with the majority 
residing in urban areas. We have significant disaster activity 
within the region, having administered 48 Presidential Disaster 
Declarations within the last 5 years with many events impacting 
multiple States. Presently, four of Region V's six States have 
active major Presidential Disaster Declarations. Illinois' 
declaration is for high winds, tornadoes and flooding and 
encompasses a total of 68 counties. Indiana, Michigan and 
Minnesota have current declarations for flooding.
    To maintain the readiness for large scale disasters, 
including acts of terrorism, regional Federal agencies and the 
States turn to the Federal Response Plan. Under the Federal 
Response Plan, FEMA coordinates a disaster response system that 
involves up to 26 Federal agencies and 12 emergency support 
functions. Each emergency support function has a lead Federal 
agency. Regionally, these emergency support functions have been 
called into action during such disasters as the midwest flood 
of 1993, and the Red River flood of 1997. Other regional 
Federal agencies and our State partners meet at least quarterly 
to share planning efforts, exercise preparedness and response 
plans and devote attention to emergency response coordination 
during specific types of natural and manmade disasters. We call 
that meeting the Regional Interagency Steering Committee and it 
will be meeting again next week here in Chicago.
    The region takes an active role in preparing for a response 
to a terrorism event. FEMA's responsibility is to coordinate 
Federal, regional and State terrorism-related planning, 
training and exercise activities. This includes supporting the 
Nunn-Lugar-Domenici program in which 36 Region V communities 
participate. We are also working with States to build response 
capability and keep them informed of Federal initiatives as 
well as participating in State-sponsored conferences, training 
exercises, task forces and workshops.
    Just last month, the region hosted a Senior Leaders 
Homeland Security Summit which brought together selected 
officials and representatives of the first responder community 
throughout our States. The summit provided a forum for 
discussions of issues relating to the fire service and law 
enforcement, funding for planning, training, equipment and 
exercises, mutual aid agreements and other issues pertinent to 
homeland security.
    All of the States in Region V have implemented proactive 
and aggressive actions in response to the terrorism threats 
that have emerged since September 11th. Many States have 
committed substantial amounts of staff and their own financial 
resources toward preparing for weapons of mass destruction 
events. All States have designated Homeland Security directors. 
Groundwork has been laid or accelerated to develop interstate 
and intrastate mutual aid agreements. Specialized response 
teams are being formed. Legislation is being enacted. Training 
is being conducted. And equipment is being purchased.
    State government has spent millions of dollars directly 
responding to homeland security needs and the anthrax crisis. 
While much has been done, we have only begun to scratch the 
surface of what needs to be done.
    FEMA has recently realigned to establish the Office of 
National Preparedness at the headquarters and regional level. 
The creation of this office is intended to address a long-
recognized problem--the critical need that exists in this 
country for a central coordination point for the wide range of 
Federal programs dealing with terrorism preparedness.
    The mission and overriding objective of the Office of 
National Preparedness at FEMA is to help this country be 
prepared to respond to acts of terrorism. The effort has three 
major focuses--the first responder initiative; providing a 
central coordination point for Federal preparedness programs; 
and, Citizen Corps.
    First, the first responder initiative. To support first 
responders, the President has requested $3.5 billion in the 
2003 budget. These funds would help them plan, train, acquire 
needed equipment and conduct exercises in preparation for 
terrorist attacks and other emergencies. Right now, we are 
developing a streamlined and accountable procedure that would 
speed the flow of funds to the first responder community. 
Specifically, the funds would be used:
    To support the development of comprehensive response plans 
for terrorist incidents.
    To purchase equipment.
    To provide training for responding to terrorist incidents.
    And for coordinated regular exercise programs to improve 
response capability.
    The President is requesting funds in the 2002 spring 
supplemental to support the first responder initiative, 
including $175 million to be provided to State and local 
governments to upgrade, and in some cases, to develop 
comprehensive emergency operations plans. These comprehensive 
plans would form the foundation for the work to be done in 2003 
to prepare first responders for terrorist attacks.
    FEMA has held listening sessions throughout the country 
with first responders and emergency managers at every level to 
solicit their ideas on the design of grant program and process. 
In addition, we are working to resolve other issues critical to 
the success of this initiative, many of which have been 
addressed this morning:
    National standards for compatible, interoperable equipment 
for first responders.
    A national mutual aid system.
    Personal protective equipment for first responders that is 
designed for long-term response operations and incidents.
    And national standards for training and exercises for 
incidents involving weapons of mass destruction.
    In addition to the right equipment, planning capabilities 
and training, first responders have been telling us that they 
need a single point of contact in the Federal Government. We 
have heard this from other sources too. The Gilmore Commission, 
for example, has pointed out that the Federal Government's 
terrorism preparedness programs are fragmented, uncoordinated 
and unaccountable. In our view, it is absolutely essential that 
the responsibility for pulling together and coordinating the 
myriad of Federal programs designed to help local and State 
responders and emergency managers to respond to terrorism, be 
situated in a single agency. That is why we are so excited 
about the President's calling for the creation of the 
Department of Homeland Security.
    The functions that FEMA performs will be a key part of the 
mission of the new Department of Homeland Security. The new 
department will strengthen our ability to carry out important 
activities such as building the capacity of State and local 
emergency response personnel to respond to emergencies and 
disasters of all kinds. The new department will administer 
Federal grants under the first responder initiative as well as 
grant programs managed by the Department of Justice, the 
Department of Health and Human Services and FEMA. A core part 
of the department's emergency preparedness and response 
function will be built directly on the foundation established 
by FEMA. It will continue FEMA's efforts to reduce the loss of 
life and property and to protect our Nation's institutions from 
all types of hazards through a comprehensive risk-based, all 
hazards emergency management program of preparedness, 
mitigation, response and recovery. It will continue to change 
the emergency management culture from one that reacts to 
terrorism and other disasters to one that proactively helps 
communities and citizens avoid becoming victims.
    By bringing other Federal emergency response assets 
together with FEMA's response capability, the new department 
will allow for better coordination than the current situation 
in which response assets are separated in several departments.
    And just a couple of words about Citizen Corps. The Citizen 
Corps program is part of the President's new Freedom Corps 
initiative.
    This initiative brings together local government, law 
enforcement, educational institutions, the private sector, 
faith-based groups and volunteers into a cohesive community 
resource. Citizen Corps is coordinated nationally by FEMA, 
which also provides training standards, general information and 
materials. We also will identify additional volunteer programs 
and initiatives that support the goals of the Corps.
    In addition to the first responder and Citizen Corps 
programs, we are implementing a number of other important 
related initiatives. These include:
    A training course review. We are working on a complete 
accounting of all FEMA and Federal emergency and terrorism 
preparedness training programs and activities.
    As I mentioned, mutual aid initiatives.
    A national exercise program.
    And finally, assessment of FEMA regional office 
capabilities.
    Thank you for the opportunity to testify here today, I will 
be happy to answer any questions you may have.
    Mr. Horn. Thank you very much.
    And our last presenter is JayEtta Hecker, the Director of 
Physical Infrastructure Issues for the U.S. General Accounting 
Office.
    [The prepared statement of Mr. Buikema follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.041
    
    [GRAPHIC] [TIFF OMITTED] T7016.042
    
    [GRAPHIC] [TIFF OMITTED] T7016.043
    
    [GRAPHIC] [TIFF OMITTED] T7016.044
    
    [GRAPHIC] [TIFF OMITTED] T7016.045
    
    [GRAPHIC] [TIFF OMITTED] T7016.046
    
    [GRAPHIC] [TIFF OMITTED] T7016.047
    
    [GRAPHIC] [TIFF OMITTED] T7016.048
    
    Ms. Hecker. Thank you very much, Mr. Chairman, Ms. 
Schakowsky and Ms. Biggert. I am very pleased to be here today. 
I represent the unit of GAO that supports the Congress in 
reviewing not only FEMA but Coast Guard and a whole level of 
body of work and preparedness and it is on the basis of that I 
base my remarks today.
    What I will do is just very briefly summarize the remarks 
that I had and then try to relate it to some of what we have 
heard today, because it has been such a rich and diverse set of 
comments.
    Basically, I have two main points. One is about the 
proposed department and the second is about the strategy that 
is needed to really be the underpinning of it.
    The department, we have called for--GAO--for many months 
and over the course of really years of study of terrorism 
programs. They are too dispersed, they are too duplicative, 
they are overlapping and they are not really very effective. 
There is not even really an assessment of an overall strategy, 
as there has not been one.
    So we have been calling for this integration and this 
establishment of a department. So in that sense, we applaud 
that.
    On the other hand, where we think it raises some concerns 
and may be over-promising or too optimistic is that somehow 
this could integrate everything. It is certainly not a quick 
fix, it will take substantial time and, in our view, additional 
resources to really make it come off, particularly the 
intergovernmental dimensions of it. Pulling all of these 
disparate departments together is a very complex undertaking 
and I think some of the remarks of the Comptroller General, 
looking at the history of the formation of the Department of 
Defense, the Department of Transportation, the Department of 
Energy, bringing together and establishing and benefiting from 
the synergies of common functions, is no quick matter. And yet 
this is a matter of urgency and there should not be any lack of 
realism about the nature of the challenge ahead.
    The second point is that this whole department has to be 
based on a strategy. Just having this notion that somehow we 
are going to collocate all of these disparate departments and 
functions and that will work, in our view is not a strategy. 
Strategy means to define--particularly from an 
intergovernmental angle. There are many dimensions to the 
strategy, but given the focus of the committee, our concern is 
about how to build those effective partnerships with different 
levels of government and the private sector. And we think a 
strategy is where you would see a vision of what is needed. It 
would define the kind of roles that are needed for different 
levels of government, where those roles are partnerships so 
that you have some real accountability and clarity, and would 
move toward real goals and measures and indicators. And 
unfortunately, we do not have that in this arena. And also, it 
would strategically define the appropriate tools because it is 
the kind of tools, whether it is regulation or grants, block 
grants, or targeted grants, that you use affects what kind of 
performance you get, what kind of accountability you get, what 
kind of sustainability you get.
    So with that as a backdrop of the remarks that I had, I 
wanted to just briefly highlight what I think we heard today 
and how many of these themes really were mirrored throughout 
the morning.
    I thought Ms. Schakowsky actually framed a very important 
issue right in your opening remarks, about the challenge of 
integrating many departments that have non-security functions. 
And I think the Coast Guard, which we just heard about that, 
has many other related non-security missions. Sometimes it is a 
good overlap, sometimes it is not. I have been on a tour in the 
New England area, where the fisheries enforcement is down, and 
it is a different arena, it is doing different things and 
basically the resources have been diverted into the harbor. So 
you have combining mixed resources.
    We heard about that from several folks today in the public 
health arena and that is clearly a whole issue about public 
health, how it has been under-funded and how it is really a 
dual use, dual purpose function. And honing in on all of the 
resources and the effort in the department, we have already 
testified, my counterpart responsible for public health, that 
actually this fragments public health programs. These programs 
are currently more integrated in the Department of Health and 
Human Services, and this says no, we are going--because it is a 
State and local preparedness activity--we are going to put it 
in this department. So we have some caution there about the 
fact that there are dual function agencies like in the public 
health arena, like the Coast Guard, like FEMA, which works on--
this country unfortunately is much more frequently the subject 
of natural disasters and preparedness on an all-hazard basis is 
very important. And that cannot end up being overshadowed by 
this formation of a security-focused department.
    So we have heard a lot about this, as you form the 
department, the mix of this dual use and therefore what is in, 
what is out or what relationships will really be defined for 
the inevitable agencies like the intelligence agencies that are 
left out. So there is a lot of partnership and clarity in this 
proposal that is needed.
    Another whole set of comments was about sustainability. Ms. 
Biggert, you actually brought that in, in your opening remarks, 
how this is a permanent and ongoing challenge. It is not like 
Y2K, when January 1 came and we said whew, this is over. This 
is not over, this is a continuing challenge.
    Dr. Lumpkin talked about the importance of long-term 
sustainability. This is not an effort that we can have a one-
time effort and we cannot have a Federal Government set of 
programs and promised programs that cannot be sustained. There 
are fiscal shortages at the States and there are at the Federal 
level as well. So a vision is needed for programs that can be 
sustained.
    Then there were some very important points about 
partnership. Chief Wilkinson and Commander Nilsson talked about 
the importance of communications and training and the pooling 
of resources. And that actually relates to targeting, go to the 
States, go to local government to promote the ideal cooperation 
and partnerships and efficient use of resources.
    And I close with your opening remarks, Mr. Horn, and the 
overall theme of today, ``How Effectively is the Federal 
Government Assisting State and Local Governments in Preparing 
for Serious Terrorist Attacks.'' You opened with the fact that 
you have serious doubts. I think there should be serious 
doubts. I think there is inadequate information, and we do not 
have standards to even measure and base conclusions about 
levels of preparedness. CNN did a guide and it is an 
approximation and some cities find that useful. But those are 
not meaningful indicators. FEMA has been mandated for a number 
of years to try to develop measures of preparedness and it is a 
long-term project. We still do not have it.
    So with all this new effort, we do not have the measures of 
what it is we are going toward and how to measure what it is we 
are trying to achieve. So the key issue of the day is that we 
do not know how prepared we are and there are major challenges 
ahead in the formation of this department to have it be 
effective, efficient and to address the many important issues 
that were raised today.
    That concludes my remarks.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] T7016.049
    
    [GRAPHIC] [TIFF OMITTED] T7016.050
    
    [GRAPHIC] [TIFF OMITTED] T7016.051
    
    [GRAPHIC] [TIFF OMITTED] T7016.052
    
    [GRAPHIC] [TIFF OMITTED] T7016.053
    
    [GRAPHIC] [TIFF OMITTED] T7016.054
    
    [GRAPHIC] [TIFF OMITTED] T7016.055
    
    [GRAPHIC] [TIFF OMITTED] T7016.056
    
    [GRAPHIC] [TIFF OMITTED] T7016.057
    
    [GRAPHIC] [TIFF OMITTED] T7016.058
    
    [GRAPHIC] [TIFF OMITTED] T7016.059
    
    [GRAPHIC] [TIFF OMITTED] T7016.060
    
    [GRAPHIC] [TIFF OMITTED] T7016.061
    
    [GRAPHIC] [TIFF OMITTED] T7016.062
    
    [GRAPHIC] [TIFF OMITTED] T7016.063
    
    [GRAPHIC] [TIFF OMITTED] T7016.064
    
    [GRAPHIC] [TIFF OMITTED] T7016.065
    
    [GRAPHIC] [TIFF OMITTED] T7016.066
    
    [GRAPHIC] [TIFF OMITTED] T7016.067
    
    [GRAPHIC] [TIFF OMITTED] T7016.068
    
    [GRAPHIC] [TIFF OMITTED] T7016.069
    
    [GRAPHIC] [TIFF OMITTED] T7016.070
    
    [GRAPHIC] [TIFF OMITTED] T7016.071
    
    Mr. Horn. Thank you. We will have 5 minutes for Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. Hecker, I think a lot of the questions that you raise 
and the concerns that you raise put everything in an important 
context and a framework. What do they say about field of 
dreams? ``Build it and they will come?'' No, we create it and 
it will work is not necessarily the case and so it is 
important, I agree, to have a strategy.
    The issue that I did raise in my opening statement--and 
others can comment too--the non-security functions, I am very 
concerned about and I am concerned about it from Chicago's 
relationship to the Coast Guard and search and rescue and 
recreational boating and all those things that we are concerned 
about. Concerned about it from the seamless standpoint, 
although I think you made a pretty compelling case on why those 
functions are more consistent than I had originally thought 
about.
    I am concerned about the INS in the Chicago area where we 
have so many immigrants. The service component is a very 
different mission from the law enforcement component and right 
now the entire INS is scheduled to go in.
    There is an argument that some will make that this is the 
government gravy train right now, and if you do not get in it, 
you are out of it altogether, and that might be rationale 
enough to say let us put all the functions in, because if 
something is going to give, it is not going to be the 
Department of Homeland Security.
    And so I am wondering if you are going to in a systematic 
way--GAO in a systematic way is going to be looking at these 
non-security functions to help guide us in what may be a better 
organizational structure or make some recommendations about all 
the things you said, the goals and measures and indicators and 
appropriate tools, etc.
    I am concerned in our rush to do this, that we do not take 
these things into consideration.
    Do you want to respond, or any of the others respond--the 
Coast Guard or FEMA.
    Ms. Hecker. I can briefly answer that. When the Comptroller 
General testified last week, he laid out a set of criteria to 
try to assist the Congress in their deliberations of how you 
assess what is in, what is out. And he talked about a set of 
criteria that could be used. This is moving so fast that we 
have not been asked to try to apply those criteria ourselves to 
some of those departments, but I am sure at your request or any 
committee, we would work with you to try to do that. I know the 
schedule in the House is short and there is a vote in the next 
few weeks or at least that is the schedule. So this is moving 
very quickly.
    I think the upshot of the Comptroller General's concern was 
yes, this is urgent, but there is also merit in moving 
cautiously. And it is not for us to speak to the agenda that 
the Congress has set, but these are very significant questions 
and even though, of course, there can be refinements like there 
was for years with the DOD or other areas, the importance of 
this is to at least get the ideas correct and the concept 
correct because we cannot have any lost time here. When you 
think of the whole TSA activity and the aggressive schedule 
thereon, nobody can lose a beat here. So getting the right 
parties involved in some of these combinations and thinking 
through some of the multiple relationships--I know in the area 
of the Coast Guard, one of the issues we raised is the kind of 
financial flexibility that might be given to the department 
head. You know, if they can move resources around, you are not 
really sure whether in fact a lot of competing functions can be 
sustained, particularly with the administration promising that 
this is no new resources. You have got to steal it from 
somewhere. There are no resources on State and local 
coordination, there is a mission and there is a promise that 
will be a big commitment, but there are no resources, it is 
just a box off of the new Secretary. So is it just going to 
pull together people from all of these conglomerate departments 
that do some of that? It is just not thought through yet and 
it--in my opinion, I think it merits more consideration by 
Congress of what is in, what is out, what the terms are, what 
the expectations are. We would be happy to help in any way we 
can.
    Ms. Schakowsky. Let me just get a comment though if I could 
from Captain Seebald. You know, we are concerned in the Chicago 
area about the Coast Guard. Do you have those concerns as well 
and how do you plan to address them?
    Captain Seebald. As a result of September 11th, we did have 
to shift some of our resources away from more of our safety 
role to more of our security role. But as a result of bringing 
on additional reservists and moving additional resources, and 
thankfully due to the $209 million supplemental that was 
passed, the first supplemental, we were able to what we think 
is to annualize that effort. And the President's fiscal year 
2003 budget is a first step in a multi-year annualization of 
that new effort. And we think over the 3-years, we will be able 
to adequately both absorb the homeland security mission and 
then adequately execute our search and rescue missions and all 
the other missions that we have.
    But certainly falling short of that budget, we would 
definitely be impacted.
    Also in homeland security, we think because we are the 
leaders and we are the first responders in the coastal zone 
that we must remain intact. We must remain both a military and 
a maritime and multi-mission organization and the Coast Guard 
must retain its entire mission portfolio.
    Ms. Schakowsky. Thank you.
    Mr. Buikema. I would just like to respond to your question 
on behalf of FEMA and really I guess talking about the concept 
of emergency management in general, especially with respect 
to--you mentioned a non-terrorism type mission that FEMA has.
    And certainly right now there are four active Presidential 
Disaster Declarations ongoing in this region. But I think it is 
important to note that whether it is terrorism or whether it is 
pretty much any other kind of emergency or disaster, the 
functions that have to be performed by government are similar. 
There are certain things such as communication and cooperation 
and coordination and command and control that whether it is a 
hazardous materials incident or a tornado or a terrorist event, 
government has to come together and coordinate and speak with 
one voice and try to speak off the same sheet of music, if you 
will.
    So some of the basic concepts and theories of emergency 
management are based on relationship building and the 
communication and coordination aspect that will be present 
whether it is a flood or a terrorist event.
    So in many respects, this proposal blends in beautifully 
with FEMA's mission and allows us to strengthen those 
relationships with our other Federal partners as well as with 
State and local governments.
    Ms. Schakowsky. Thank you.
    Mr. Horn. The other----
    Ms. Biggert. Just one question, Mr. Chairman.
    Mr. Buikema, you mentioned in your testimony that FEMA is 
assessing the capabilities of its regional offices. Do you 
think that there will be--is it the plan to develop different 
capabilities within each of the regional offices, or simply 
ensure that each regional office has the capability to respond 
to an emergency?
    Mr. Buikema. More the latter, Ms. Biggert. Basically FEMA 
has a number of response teams and response elements and plans 
and procedures that can be enacted and implemented in the event 
of a disaster emergency. This has been an ongoing process but 
especially new focus has been placed on this since September 
11th and our region just went through this process a couple of 
weeks ago and it was a peer assessment. In other words, folks 
from outside the region came in and took a look at our 
capabilities and our strengths and our weaknesses and it is a 
very valuable exercise, if you will, because it allows us then 
to address any weaknesses and proactively try to strengthen our 
capability to respond.
    Ms. Biggert. Is there--I think that you might have answered 
this, but you know, FEMA, the culture of FEMA really is to 
react and to respond to terrorism or other disasters. How--are 
you changing the culture of the agency when it proactively 
helps the community citizens to avoid becoming victims?
    Mr. Buikema. Actually, FEMA has been a strong proponent of 
mitigation or prevention for many years now. There has been a 
lot of emphasis on prevention, an attempt to break the cycle, 
if you will, and I will use flooding as an example, where too 
many homes and structures perhaps are built in hazard areas 
such as flood plains. An event occurs, a flood occurs, which 
may or may not, depending on the circumstances, ultimately lead 
to a major disaster declaration and assistance from the Federal 
Government, and then subsequent to that another flood occurs in 
this cycle.
    So FEMA has been very aggressively, for a number of years, 
working with State and local governments to try to prevent 
that. Every time a Presidential Disaster Declaration is 
declared, a percentage of the Federal funds that come into a 
State are set aside for hazard mitigation grant program 
dollars. For example, in Illinois, if my facts are correct, 
over 3,000 homes have been bought up by the State of Illinois 
with Federal and local money and removed out of the flood 
plain, as an example of the way to prevent future disasters 
from occurring.
    Ms. Biggert. Thank you for that clarification. Thank you, 
Mr. Chairman.
    Mr. Horn. Thank you. I appreciate the presentations all of 
you have given. It is going to be very helpful and I thank you 
for coming here.
    I want to now thank that people that arranged this 
particular hearing: J. Russell George, the staff director and 
chief counsel is back there; Bonnie Heald, deputy staff 
director on my left and your right; Rosa Harris is from the 
General Accounting Office on loan to the subcommittee and very 
responsible for this particular hearing; Justin Paulhamus is 
our majority clerk and does a great job and he is at the end of 
the table and he is going to have to be the dust-up guy for the 
rest of Chicago. And then Michael Sazonov, a subcommittee 
intern; Sterling Bentley, another subcommittee intern; Joe 
DiSilvio, an intern and Yigal Kerszenbaum is another intern.
    The minority staff; David McMillen here is behind me, a 
professional staff member; and Nadem L. Schaume is the deputy 
chief of staff, press secretary for Representative Schakowsky. 
And their help was great to us and Leslie Kohn, her district 
director in the Chicago office, and John Samuels, legislative 
director, Office of Representative Schakowsky.
    And we are also particularly caring about his giving us 
this fine chamber, and that is Chief Judge Charles Kokoras. And 
Joe Quomo is the General Services Administration Site 
Coordinator. Joe Navit is the courtroom technician. And Ulga 
Koloson is the administrative assistant to the chief judge. And 
not last, but he is going to see us in Omaha and that is Bill 
Warren, court reporter. That is a tough job when you are 
getting all of you and getting it in the right place. So thank 
you very much.
    And with that, we are adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
